United States Department of Agriculture
Office of Inspector General




                          Office of Inspector General
                                          Semiannual
                                          Report to Congress
                                          FY 2008 - 2nd Half
                                          No. 60 November 2008
Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued
      Number of Reports	                                                                           34
      Number of Recommendations	                                                                  142
Management Decisions Made
      Number of Reports	                                                                           25
      Number of Recommendations	                                                                  153
Total Dollar Impact (Millions) of Management-Decided Reports	                                  $118.6
      Questioned/Unsupported Costs	                                                              $0.7
      Funds To Be Put to Better Use	                                                           $117.9
Summary of Investigative Activities
Reports Issued	                                                                                   129
Impact of Investigations
      Indictments	                                                                                359
      Convictions	                                                                                358
      Arrests	                                                                                    994
Total Dollar Impact (Millions)	                                                                 $40.0
Administrative Sanctions	                                                                          78

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2008)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 8 and 16-17.
2) Implementation of Strong, Integrated Internal Control Systems Still Needed
Related material can be found on pages 3, 7-11, 15-18, and 23-24.
3) Continuing Improvements Needed in Information Technology (IT) Security
Related material can be found on pages 17-18.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on pages 4 and 39.
5) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
Related material can be found on pages 21.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
Related material can be found on page 16.
7) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
the Cost of Fighting Fires Related material can be found on pages 3-4.
8) Improved Controls Needed for Food Safety Inspection Systems
Related material can be found on pages 1-2.
9) Implementation of Renewable Energy Programs at USDA
Related material can be found on pages 13-15.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA), for the 6-month period that ended September 30, 2008. This report summarizes the most significant OIG
activities during the period, organized according to the goals set forth in the OIG Strategic Plan for FY 2007-2012, as shown below.
n	    Safety, Security, and Public Health – Prompted by a Congressional request, OIG determined that the Food Safety
      and Inspection Service (FSIS) needs to strengthen controls for reinspecting meat and poultry products at U.S. ports of
      entry. We also responded to then Acting Secretary Conner’s request and found that FSIS should collect and analyze a
      more representative sample during outbreak investigations related to recalls for adulterated or contaminated products.
      Our investigative work resulted in sentencings in cases involving dogfighting and contaminated meat and poultry.
n	    Integrity of Benefits – Our investigative cases involving the Food Stamp Program (FSP, renamed the Supplemental Nutrition
      Assistance Program, effective October 1, 2008) and other feeding programs, as well as conversion of mortgaged collateral, produced
      significant prison sentences and court-ordered restitutions and forfeitures totaling millions of dollars. Our audit work found that
      the Food and Nutrition Service should strengthen its processes for approving retailers in FSP, the Farm Service Agency (FSA) was
      limited in its ability to enforce collection of tobacco assessments to fund the Tobacco Transition Payment Program, and FSA did
      not have effective controls to ensure interest rates charged by lenders met requirements of FSA’s guaranteed farm loan programs.
n	    Management Improvement Initiatives – Our audits found that USDA’s implementation of renewable energy activities needs
      improvement, FSA did not effectively determine eligibility for the Emergency Forestry Conservation Reserve Program, and
      improper reimbursement requirements and ill-defined missions directed by the Federal Emergency Management Agency increased
      costs and may have hindered Forest Service operations. In addition, the National Finance Center received its first unqualified
      opinion on its general control environment. After our investigation, a former USDA employee was convicted of computer fraud.
n	    Stewardship Over Natural Resources – Our audit work found that the Natural Resources Conservation Service improperly
      obligated Wetlands Reserve Program funds and inadequately monitored easements, but it improved the status review
      process to evaluate producer compliance with highly erodible land conservation and wetland conservation provisions.

During this reporting period, we conducted successful investigations and audits that led to 994 arrests, 358 convictions,
$40.0 million in recoveries and restitutions, 138 program improvement recommendations, and $118.6 million in financial
recommendations. In response to some of our program improvement recommendations, FSA agreed to revise its examination
procedures and forms to provide comprehensive procedural guidance for warehouse examiners at port facilities, and the Department
agreed to develop and implement a renewable energy strategy that includes program goals for agency managers.
These program improvements and monetary results would not have been possible without the continuing interest and support
of the Congress, Secretary Schafer, and Deputy Secretary Conner. Their strong commitment is vital to our mutual success in
improving USDA programs and operations. The excellence of OIG staff work has been recognized by the Secretary, the President,
and the President’s Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency (see page 27).




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13

 Stewardship of Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

 Abbreviations of Organizations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
                                                                    Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                    In the second half of fiscal year (FY) 2008, we devoted
                                                                         21 percent of our total direct resources to Goal 1, with
Strengthen USDA’s ability to implement safety and                        99.6 percent of these resources assigned to critical/high‑impact
security measures to protect the public health as                        work. A total of 92.3 percent of our audit recommendations
well as agricultural and Departmental resources.                         under Goal 1 resulted in management decision within 1 year,
                                                                         and 98.5 percent of our investigative cases resulted in criminal,
To help USDA and the American people meet critical
                                                                         civil, or administrative action. OIG issued 4 audit reports under
challenges in safety, security, and public health, OIG provides
                                                                         Goal 1 during this reporting period and a total of 10 during
independent and professional audits and investigations in these
                                                                         the full fiscal year. OIG’s investigations under Goal 1 yielded
areas. Our work addresses such issues as the ongoing challenges
                                                                         91 indictments, 172 convictions, and about $7.1 million in
of agricultural inspection activities, safety of the food supply,
                                                                         monetary results during this reporting period and a total of
and homeland security.
                                                                         113 indictments, 449 convictions, and about $8.9 million in
                                                                         monetary results during the full fiscal year.


 Management Challenges Addressed UNDER GOAL 1
 n	     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2, 3, and 4)
 n	     Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)
 n	     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
 n	     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
        Producers To Meet the Global Trade Challenge (also under Goal 3)
 n	     Better Forest Service Management and Community Action Needed To Improve the Health of the
        National Forests and Reduce the Cost of Fighting Fires (also under Goals 3 and 4)
 n	     Improved Controls Needed for Food Safety Inspection Systems



EXAMPLES OF AUDIT AND INVESTIGATIVE                                      for specifying the priority of performing reinspection activities,
WORK FOR GOAL 1                                                          verifying production dates, analyzing data in its information
                                                                         system, and managing noncompliance records.
Food Safety and Inspection Service (FSIS) Needs
                                                                         We also found that FSIS had adequately implemented
To Strengthen Inspection Processes for Meat and
                                                                         the corrective actions reported for 49 of 51 previous
Poultry Imports
                                                                         recommendations. However, FSIS had not documented the
In response to a Congressional request, we conducted an audit            protocols implemented in the agency’s management controls.
to evaluate FSIS inspection processes for meat and poultry               FSIS needs to document controls for assessing the equivalence
imports to ensure the integrity of the U.S. food supply.                 of foreign countries’ food safety systems, specifically the
We determined that FSIS needs to strengthen controls for                 controls concerning the methodology used to select foreign
reinspecting meat and poultry products at U.S. ports of entry.           establishments for review. FSIS also should document its policy
FSIS should determine the number of “intensified inspections”            to perform onsite audits before receiving product from a new
(which are called for after physical or laboratory failures to           or suspended country. FSIS agreed with our recommendations
meet U.S. requirements) that would provide the appropriate               and has begun corrective action. (Audit Report No. 24601-08-
level of protection to ensure the safety and wholesomeness of            Hy, Followup Review of Controls Over Imported Meat and
imported products. FSIS also needs to strengthen procedures              Poultry Products)




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half         1
                                                                 Goal 1




FSIS Should Collect and Analyze a More                                This case was worked jointly with FSIS’ Office of Program
Representative Sample During Outbreak                                 Evaluation, Enforcement and Review.
Investigations                                                        Plant Employee Contaminates Poultry
In September 2007, FSIS announced that a New Jersey                   To Get Day Off From Work
establishment was expanding a voluntary recall to more than           In April 2008, an employee of a poultry plant was ordered to
21 million pounds of frozen ground beef products possibly             pay the company $199,587 in restitution after he contaminated
contaminated with E. coli O157:H7. In response to the Deputy          poultry to get a day off from work. In November 2007, the
Secretary’s (then Acting Secretary) request in October 2007, we       employee pled guilty and was sentenced in Circuit Court,
assessed whether improvements could be made to protocols for          Johnson County, Arkansas, to serve 60 months of probation
handling recalls to ensure that accurate information is rapidly       and was ordered to pay a $1,000 fine and perform 40 hours of
obtained and conveyed to the appropriate decision makers and          community service for felony criminal mischief. The employee
whether FSIS is taking full advantage of its statutory authorities    was seen on company surveillance cameras throwing ink into a
to address recalls.                                                   chiller, adulterating the poultry inside. The employee confessed
We found that FSIS has taken strides to strengthen its                to the crime and stated that he just wanted a day off from work.
investigative and recall procedures and has taken full advantage      This case was worked jointly with the Clarksville, Arkansas,
of its recall authority. However, FSIS needs a protocol to            Police Department.
collect a more representative sample from establishments for          Tennessee Man Sentenced to Prison for
laboratory analysis during an outbreak investigation. Due to          Communicating False Information That
lack of guidance, FSIS collected from the company the only
                                                                      a Consumer Product Was Tainted
available package that had the identical labeling and production
date as the non-intact (opened) product from a case patient’s         In September 2008, a Tennessee man was sentenced in Federal
home. (FSIS later became aware of additional product at the           court to serve 12 months and 1 day in prison, followed by
company.) The product collected from the company tested               36 months of probation upon release, and was ordered to pay
negative for E. coli O157:H7. As a result, FSIS could not             restitution of $471,712 for communicating false information
conclude that contamination had occurred at the establishment,        that a consumer product had been tainted. In September
and the lack of additional product testing potentially delayed        2007, a food processing facility received a telephone call
the agency’s ability to recommend a recall. In addition, FSIS         from an anonymous source who advised that their food
has not finalized and implemented its draft directive for             product was contaminated with pesticide. The investigation
investigating foodborne illnesses and its revised directive for       disclosed the man as a potential subject, and the Food and
handling recalls. FSIS agreed with our recommendations.               Drug Administration (FDA) administered a polygraph
(Audit Report No. 24601-09-Hy, FSIS’ Recall Procedures for            examination. The man subsequently admitted to making the
Adulterated or Contaminated Product)                                  telephone call but denied contaminating any food product.
                                                                      This misinformation caused the food processing facility to
New Jersey Man Convicted in Federal Court for
                                                                      experience a temporary interruption of service while awaiting
Contaminating Meat
                                                                      the return of laboratory results. All product samples tested
In June 2008, a co-owner of a Jersey City, New Jersey, meat           negative for pesticide residue. This case was worked jointly with
distributing company was sentenced to serve 24 months of              FDA’s Office of Criminal Investigations.
probation and fined $1,000 after pleading guilty in Federal
court to holding adulterated meat products for sale. The              Joint Investigation Uncovers Dogfighting Ring
co-owner had stored approximately 9,000 pounds of goat and            In June 2008, a man was sentenced in State Court, Hamilton
beef carcasses in a manner that led to the product becoming           County, Ohio, to 162 months in prison for dogfighting and
adulterated with rodent infestation. The product was destroyed        both possession of and trafficking in marijuana. The 14-month
by FSIS before any adulterated meat could reach consumers.            undercover investigation disclosed that the man was a principal




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                      Goal 1




organizer of a dogfighting ring and gambling organization in               Inspections of Port Facilities Do Not Guarantee
the Dayton and Cincinnati metropolitan areas and other parts               Quality of USDA Food Exports
of Ohio, Kentucky, and Michigan. Judicial action is pending
                                                                           The Farm Service Agency (FSA) facilitates the sale, donation,
against numerous other defendants charged with similar
                                                                           and transfer of Commodity Credit Corporation (CCC)-owned
offenses. This case is being worked jointly with various Federal,
                                                                           commodities by arranging for their export as part of various
State, and local law enforcement entities as part of the Ohio
                                                                           food aid programs. We found that FSA’s port examination
Organized Crime Investigations Commission Taskforce. OIG’s                 process, initiated in 1999 to improve storage conditions for
National Computer Forensic Division (NCFD) provided                        food awaiting shipment, was not sufficient to guarantee the
computer forensics assistance in this case.                                quality of food exports. FSA had developed and maintained a
Incident Commander (IC) in Thirtymile Fire                                 list of “approved” port facilities but does not have a statutory
Is Sentenced                                                               basis for discontinuing relationships with substandard facilities.
                                                                           Rather than promulgate regulations for approving and
In August 2008, the IC for the Thirtymile Fire was sentenced
                                                                           removing a port from its list of approved ports, FSA relied on
to 90 days of incarceration, followed by 36 months of                      its procurement regulations (which provide that the adequacy
probation, and assessed a $50 penalty. He was also required to             of the port be considered before final selection) to conduct
submit to a complete mental health, alcohol, and substance                 the examinations since it had to determine whether a port or
abuse evaluation. He must abstain from alcohol during                      transloading facility was able to perform. However, there is
his probationary period and submit to alcohol testing as                   no binding contractual agreement between FSA and the port
required. In addition, he is prohibited from seeking firefighter           or transloading facility. Moreover, port examinations were
qualifications or engaging in firefighting or fire-line activities.        inconsistent because FSA’s examination procedures did not
In April 2008, in the Eastern District of Washington, the                  contain precise and comprehensive guidance for warehouse
IC had pled guilty to two counts of making false statements.               examiners to determine the significance of violations. FSA also
On July 10, 2001, four Forest Service (FS) firefighters died               failed to adequately follow up on deficiencies.
after they became entrapped and their fire shelter deployment
                                                                           In response, FSA reported that it plans to create, under the
site was burned over by the Thirtymile Fire in the Chewuch
                                                                           authority of the U.S. Warehouse Act (USWA), a license for
River Canyon, 30 miles north of Winthrop, Washington.
                                                                           port facilities and require during the procurement process
The investigation disclosed that the IC failed to order the
                                                                           that only USWA-licensed facilities handle Government food
firefighters off a rock slope where the firefighters had deployed
                                                                           assistance commodities. This would allow FSA to use current
their emergency fire shelters; he subsequently provided false
                                                                           licensing program policies and procedures, written standards
statements to investigators. This fire led to the passage of Public
                                                                           for approval, and due process for approving and disapproving
Law 107-203, which was signed into law on July 24, 2002,
                                                                           facilities under USWA, as well as current procedures to track
requiring OIG to conduct an independent investigation into
                                                                           and follow up on adverse examination reports and to suspend
the death of any FS employee resulting from a burnover or
                                                                           and revoke licenses. FSA also plans to revise its examination
entrapment in a wildland fire.
                                                                           procedures and forms to provide comprehensive procedural
                                                                           guidance for examiners. (Audit Report No. 03099-198-KC,
                                                                           Inspection of Temporary Domestic Storage Sites for Foreign
                                                                           Food Assistance)




                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half         3
                                                                    Goal 1




    GOVERNMENTWIDE ACTIVITIES – GOAL 1                                       n	    swine and poultry handling and inspection (FSIS),
                                                                             n	    national residue program in non-cull cow,
    Participation on Committees, Working Groups,
                                                                                   swine, and poultry plants (FSIS),
    and Task Forces
                                                                             n	    followup of APHIS licensing of animal exhibitors,
    n	     An OIG Special Agent is assigned full time to the
           Federal Bureau of Investigation’s (FBI) National                  n	    Food Emergency Response Network (FSIS),
           Joint Terrorism Task Force (NJTTF). The agent
                                                                             n	    salmonella verification testing program (FSIS),
           attends the NJTTF threat briefings and provides a
           variety of products related to terrorist intelligence             n	    USDA’s role in the export of genetically engineered
           to OIG and other agencies and offices within the                        (GE) agricultural commodities (Senior Advisor to the
           Department. OIG Special Agents nationwide are                           Secretary for International and Homeland Security
           assigned to the FBI’s local JTTFs. OIG’s participation                  Affairs and Biotechnology; APHIS; Agricultural
           on the national and local JTTFs has provided an                         Research Service (ARS); Cooperative State Research,
           excellent means for sharing critical law enforcement                    Education, and Extension Service (CSREES); Foreign
           intelligence and has served to help broaden the                         Agricultural Service (FAS); and Grain Inspection,
           knowledge of the FBI and other law enforcement                          Packers and Stockyards Administration (GIPSA)),
           agencies about conducting criminal investigations                 n	    USDA controls over GE animals and insects
           with a connection to the food and agriculture sector.                   research (ARS, CSREES, and APHIS),
    ONGOING AND PLANNED REVIEWS FOR GOAL 1                                   n	    controls over GE food and agriculture
    Topics that will be covered in ongoing or planned reviews                      imports (APHIS),
    under Goal 1 include:                                                    n	    agency controls over the National Plant
                                                                                   Diagnostic Network (CSREES and APHIS),
    n	     oversight of the National Organic Program
           (Agricultural Marketing Service (AMS)),                           n	    agency controls over the National Animal Health
                                                                                   Laboratory Network (APHIS and CSREES),
    n	     followup on purchase specifications
           for ground beef (AMS),                                            n	    USDA’s response to colony collapse disorder (ARS),
    n	     fresh product grading (AMS),                                      n	    implementation of flood control dams rehabilitation
                                                                                   (Natural Resources Conservation Service (NRCS)),
    n	     assessment of USDA controls to ensure compliance
           with beef export requirements (AMS and FSIS),                     n	    FS contracted labor crews,
    n	     evaluation of management controls over                            n	    followup on prior firefighter safety audits (FS),
           pre-slaughter activities (FSIS),
                                                                             n	    FS firefighting succession plans,
    n	     oversight of the recall by a California
                                                                             n	    FS replacement plan for firefighting aerial resources,
           slaughterhouse (FSIS),
                                                                             n	    FS National Fire Plan Reporting System, and
    n	     animal care inspections of dealers (Animal and
           Plant Health Inspection Service (APHIS)),                         n	    FS Fire Program Analysis System.
    n	     oversight of the designated qualified persons                     The findings and recommendations from these efforts will
           enforcing the Horse Protection Act (APHIS),                       be covered in future Semiannual Reports as the relevant
    n	     controls over animal import centers (APHIS),                      audits and investigations are completed.

    n	     Plant Protection and Quarantine program (APHIS),




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                 Goal 2




Integrity of Benefits
Strategic Goal 2:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                      WORK FOR GOAL 2
Reduce program vulnerabilities and strengthen
program integrity in the delivery of benefits to                      Food Stamp Cases and Related Offenses in Several
program participants.                                                 States Yield Substantial Prison Sentences and
                                                                      Millions of Dollars in Restitutions and Forfeitures
OIG conducts audits and investigations to ensure or restore
                                                                      n	    In July 2008, the owner of a Newark, New Jersey, grocery
integrity in the various benefit and entitlement programs of
                                                                            store was sentenced in Federal court to serve 43 months in
USDA, including a variety of programs that provide payments
                                                                            prison, followed by 36 months of probation upon release,
directly and indirectly to individuals or entities. The size of             and was ordered to pay restitution of $1,482,864 to USDA
these programs is daunting: the Food Stamp Program (FSP,                    for discounting Electronic Benefits Transfer (EBT) benefits
renamed the Supplemental Nutrition Assistance Program,                      for cash. The owner was arrested in June 2000 and shortly
effective October 1, 2008) alone accounts for approximately                 thereafter fled to the Dominican Republic until 2007, when
$40 billion in benefits annually, while well over $20 billion               she was extradited to the United States to face the charges.
annually is spent on USDA farm programs. Intended                           As reported for the first half of FY 2007, in October 2006,
beneficiaries of these programs include the working poor,                   three other individuals connected with this case were
hurricane and other disaster victims, and schoolchildren, as well           ordered to pay a total of $1.1 million in restitution for their
as farmers and producers. These programs support nutrition,                 role in committing food stamp trafficking via the EBT
                                                                            system by discounting large amounts of EBT benefits for
farm production, and rural development.
                                                                            cash. One individual received 21 months in prison, and the
In the second half of FY 2008, we devoted 39 percent of our                 other two received probation for a term of 36 months each.
total direct resources to Goal 2, with 89.3 percent of these                This case was worked jointly with the U.S. Secret Service.
resources assigned to critical/high-impact work. A total of           n	    In conjunction with the U.S. Attorney’s Office for the
97.7 percent of our audit recommendations under Goal 2                      Southern District of New York, in the fall of 2006, OIG
resulted in management decision within 1 year, and                          initiated a large-scale investigation of food stamp trafficking.
84.5 percent of our investigative cases resulted in criminal,               As a result, in April 2007, two grocery store owners and
civil, or administrative action. OIG issued 16 audit reports                their employees were charged with violations of Federal law,
under Goal 2 during this reporting period and a total of 26                 including food stamp trafficking and theft of Government
during the full fiscal year. OIG investigations under Goal                  funds. Also, more than $1.1 million in cash and property
2 yielded 237 indictments, 152 convictions, and about                       associated with the fraud were seized and forfeited to the
$29.4 million in monetary results during the reporting period               Government. In January 2008, the owner of one store pled
                                                                            guilty, and the owner of the other store was found guilty
and a total of 335 indictments, 244 convictions, and about
                                                                            at trial. In June 2008 and July 2008, the grocery store
$60.5 million in monetary results during the full fiscal year.
                                                                            owners received sentences of, respectively, 57 months of
                                                                            imprisonment and restitution of $442,352, and 37 months
  Management Challenges Addressed Under Goal 2                              of imprisonment and $1,471,248 in restitution. In addition,
                                                                            their employees pled guilty and received sentences ranging
  n	     Interagency Communications, Coordination,                          from probation to imprisonment and restitution.
         and Program Integration Need Improvement
         (also under Goals 1, 3, and 4)                               n	    In May 2008, a former Chicago, Illinois, grocery store
                                                                            owner was sentenced in Federal court to serve 12 months
  n	     Implementation of Strong, Integrated Internal                      and 1 day in prison, followed by 36 months of probation,
         Control Systems Still Needed (also under Goal 3)                   and was ordered to pay $1,082,987 in restitution and
                                                                            a $200 fine, and forfeit $698,014 for exchanging EBT
                                                                            benefits for cash. From May 2002 to December 2002,
                                                                            the former grocery store owner redeemed approximately
                                                                            $794,416 in food stamp benefits despite reported annual




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half            5
                                                                     Goal 2




     food sales of $169,840. The former grocery store owner                    for their participation in this scheme. OIG’s NCFD
     also operated and exchanged EBT benefits for cash at                      provided computer forensics assistance in this case.
     two additional grocery stores. From September 2001 to
                                                                          n	   In April 2008, the owner of a San Antonio, Texas, grocery
     March 2002, the second store redeemed $311,285 in food
                                                                               store was sentenced in Federal court to serve 36 months
     stamp benefits, and from May 2003 to February 2004,
                                                                               of probation and was ordered to pay $458,995 in
     the third store redeemed $177,638 in food stamp benefits.
                                                                               restitution for WIC and EBT trafficking. In July 2007,
     This investigation was conducted jointly with the Internal
                                                                               and September 2007, a former WIC employee for the
     Revenue Service’s Criminal Investigation (IRS CI).
                                                                               city and two co-conspirators received sentences ranging
n	   In August 2008, a co-owner of a Flint, Michigan, grocery                  from 24 months of probation to 15 months in prison
     store was sentenced in Federal court to serve 27 months                   and were ordered to pay $57,472 in restitution. A third
     in prison and 24 months of supervised release, and was                    co-conspirator remains a fugitive. The OIG investigation
     ordered to pay restitution of $916,888 for trafficking in                 disclosed that, between January 2001 and October
     EBT benefits and Special Supplemental Nutrition Program                   2001, the WIC employee and three others conspired
     for Women, Infants, and Children (WIC) coupons. The                       to embezzle and create approximately 691 fictitious
     remaining store owner was sentenced in Federal court on                   WIC vouchers totaling $49,290 from the Metropolitan
     the same day to serve 4 months in prison, 2 months of                     Health District, WIC Division. The grocery store owner
     home confinement, and 24 months of supervised release                     was aware of the WIC fraud scheme and subsequently
     and was ordered to pay restitution of $44,547 for fraud                   purchased the WIC vouchers and also exchanged EBT
     in connection with various Federal welfare programs. The                  benefits for cash. A financial analysis revealed that, from
     investigation disclosed that, from 2001 to 2003, the co-                  January 1999 to May 2003, the grocery store owner
     owners fraudulently redeemed approximately $322,000                       redeemed approximately $458,000 in WIC and food stamp
     in food stamp benefits and $594,000 in WIC coupons.                       benefits that were not supported by legitimate sales.
     This was a joint investigation with the U.S. Department
     of Health and Human Services OIG and the State of
                                                                          Long Prison Sentences and Restitutions Ordered for
     Michigan’s Department of Human Services OIG.                         Fraud in Feeding Programs
                                                                          n	   In May 2008, a Texas church pastor was sentenced in
n	   As reported previously, from January 2002 to January 2004,
                                                                               Federal court for fraudulently participating in the Summer
     an Ohio furniture store owner led a nationwide network
                                                                               Food Service Program (SFSP). The OIG investigation
     that trafficked in stolen merchandise and food stamps
                                                                               disclosed that, from April 2003 to April 2006, the church
     through inner-city markets near Dayton, Ohio. Stolen
                                                                               pastor illegally obtained $586,347 in SFSP benefits,
     merchandise transported to several other States included
                                                                               formed five corporations and one business entity that
     infant formula, diabetic blood glucose test strips, over-the-
                                                                               he used to launder the illegally obtained benefits, and
     counter medications, and health and beauty aids valued
                                                                               used a portion of the illegal gains to purchase a residence
     at approximately $448,656. Much of the stolen infant
                                                                               and two vehicles. The pastor was sentenced to serve 235
     formula was transported interstate to WIC-authorized
                                                                               months in prison, followed by 36 months of supervised
     stores. In January 2004, the store owner and 19 others were
                                                                               release, and was ordered to pay $544,649 in restitution,
     charged with food stamp trafficking, receipt and interstate
                                                                               jointly and severally with the business interests. The court
     transportation of stolen property, conspiracy, and money
                                                                               also ordered forfeiture of the pastor’s residence and two
     laundering. Nineteen, including the store owner, have
                                                                               vehicles. This investigation was conducted jointly with
     pled guilty or been convicted. Sixteen received sentences
                                                                               the Department of Homeland Security’s (DHS) U.S.
     ranging from 8 to 28 months of incarceration with 12 to
                                                                               Immigration and Customs Enforcement (ICE) and IRS CI.
     36 months of probation, total fines of $6,950, and total
     restitution of $87,552. In March 2006, the store owner               n	   In July 2008, the executive director of a sponsoring
     was sentenced to 11 years in prison, 5 years of supervised                organization in North Carolina and her daughter were
     release, and more than $2.6 million in restitution. In May                sentenced in Federal court for defrauding the Child
     and June 2008, the last two individuals were sentenced                    and Adult Care Food Program (CACFP) and IRS.
     to serve 30 and 15 months, respectively, in Federal prison                The investigation disclosed that, between October
                                                                               2002 and March 2005, the sponsoring organization




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                     Goal 2




      falsified documents to illegally obtain $777,902 in                 New Jersey Needs To Strengthen Controls for
      CACFP reimbursements. In addition, the executive                    Allocating Administrative Costs to FSP
      director and her daughter failed to pay taxes on the
      illegally obtained funds deposited into their personal              We concluded that the New Jersey State agency needs to
      bank accounts. The executive director was sentenced to              improve its controls over how FSP administrative costs are
      serve 57 months in prison, followed by 36 months of                 allocated to the program. Each county welfare agency in New
      supervised release, and was ordered to pay $1,191,749               Jersey has staff assigned to different work units that provide
      in restitution to the North Carolina Health and Human               assistance to applicants for welfare programs, including FSP.
      Services and IRS. Her daughter was sentenced to 90 days             Administrative costs are allocated for each unit based on an
      of home confinement, 5 years of probation, and 200                  approved method—one being a statistically selected random
      hours of community service, and was ordered to pay                  moment time study—or distributed based on employee
      a $3,000 fine and $49,134 in restitution to IRS. This
                                                                          personnel activity reports that should reflect actual activity for
      investigation was conducted jointly with IRS CI.
                                                                          each employee.
Food and Nutrition Service (FNS) Should Strengthen                        The three counties in our review did not ensure that employees’
Its Processes for Approving Retailers for                                 salaries were charged to the correct work units, and two
Participation in the Food Stamp Program (FSP)                             counties did not ensure that all employees were included
FSP is carried out in cooperation with private retailers. We              in the sample universe before making sample selections for
found that, generally, FNS had controls in place to ensure                the random moment time studies. For one, county staff
proper retailer authorizations. However, we identified two                misunderstood instructions from the State agency relating to
areas where FNS could strengthen its processes for approving              requirements for the random moment time studies. The State
retailers for participation in FSP, and thus strengthen program           agency also had not ensured allocations were in compliance
integrity. FNS does not verify FSP applicant retailers’ criminal          with procedures because it relied on Office of Management
records prior to approval and therefore cannot comply with its            and Budget (OMB) guidance on Single Audits that suggests,
own requirement to deny authorization to any retailer with a              but does not require, testing of a State agency’s cost allocation
criminal conviction that reflects on the business integrity of the        plan. Therefore, there is no assurance that payroll cost
owner. Instead, FNS relies on applicant retailers to certify to           allocations were reviewed as part of the Single Audit process.
the accuracy of information provided relative to their criminal           FNS and the State agency agreed with our recommendations
record at the point of application. Also, FNS field offices are no        to implement a corrective action plan to ensure that costs are
longer required to hold face-to-face meetings with applicants to          properly allocated to benefiting programs and to train staff on
provide training and explain compliance with FSP regulations              proper cost allocation. (Audit Report No. 27002-25-Hy, FSP
and the different types of violations (i.e., trafficking), which          Administrative Costs in New Jersey)
could impair the successful prosecution of FSP violators.
                                                                          Colorado Needs To Significantly Improve Management
We recommended that FNS require retailers to undergo a
                                                                          of FSP Through Its EBT System
criminal record background check before acceptance into FSP.
In response to FNS concerns about the difficulty of obtaining             In 2006, FNS officials in Denver, Colorado, informed us
these records and the necessity of implementing a regulatory              of multimillion-dollar discrepancies and unexplained over-
change that may not be cost beneficial, we advised that FNS               issuances caused by the failure of its new computerized FSP
should continue to seek other options to better ensure the                eligibility system to operate properly. As a result, we initiated an
integrity of retailers applying to participate in the program.            audit as part of a multi-year plan to provide a comprehensive
FNS agreed to consult with the Department of Justice (DOJ)                assessment of the adequacy of the established controls over food
to ensure that the retailer authorization process is sufficient           stamp EBT on a national basis and to evaluate the effectiveness
for successful prosecution of retailers who are trafficking food          of FNS’ oversight efforts. Although the audit did not disclose
stamp benefits. (Audit Report No. 27601-15-At, FSP Retailer               any deficiencies with the EBT system itself, the Colorado State
Authorizations and Store Visits)                                          Agency’s management of FSP through its EBT system needs




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half           7
                                                                     Goal 2




significant improvement. The State agency needs to improve                collection of assessments and penalties from non-paying and
controls for issuing FSP benefits and establishing claims                 non-reporting entities. In addition, FSA is working with TTB
through its computerized system. In addition, we identified               to achieve an official Memorandum of Understanding that will
deficiencies in controls that the State agency established to             allow FSA to use TTB’s data to calculate and levy assessments
oversee and secure its EBT system. For example, the State                 against non-reporting entities. FSA also agreed, generally, to
agency did not use available EBT management reports to                    develop and implement regulations and procedures authorizing
monitor program operations for improper activity. It also did             onsite compliance reviews and documenting the process for
not establish units to assist in the prosecution of trafficking by        calculating assessments. (Audit Report No. 03601‑15‑At,
food stamp recipients. We also noted deficiencies in issuing              TTPP – Tobacco Assessments)
benefits and EBT system security.
                                                                          FSA Needs To Strengthen Controls Over Guaranteed
FNS agreed to require the State agency to ensure that errors              Farm Loan Interest Rates
in the FSP eligibility system are corrected and claims properly
                                                                          We found FSA did not have effective controls to ensure that
established, perform system data analysis for FY 2007 if
                                                                          interest rates charged by lenders met program requirements.
a similar FY 2006 data analysis discloses significant over-
                                                                          For FSA’s portfolio of 56,000 guaranteed farm loans valued at
issuances, pursue for collection any over-issuances identified
                                                                          $12.1 billion, Federal regulations require that lenders’ interest
in their analysis, and improve oversight of its EBT system and
                                                                          rates on guaranteed loans not exceed the rate lenders charge
strengthen controls over system security to prevent misuse of
                                                                          their “average agricultural loan customers” (“average rate”).
FSP funds. (Audit Report No. 27099-68-Hy, EBT System in
                                                                          Neither FSA personnel nor any of the five lenders we reviewed
Colorado)
                                                                          could clearly articulate a methodology that demonstrated
FSA Was Limited in Its Ability To Enforce Collection of                   such compliance. Using lenders’ self-described rate-setting
Tobacco Assessments To Fund the Tobacco Transition                        methodologies, we calculated that, for 28 of the 71 guaranteed
Payment Program (TTPP)                                                    loans reviewed, lenders charged interest rates up to 2.25 percent
                                                                          above their average rate. Our review was limited because we
TTPP, administered by FSA for tobacco quota holders and
                                                                          did not have access to the lenders’ private (non-guaranteed)
producers of tobacco, is funded by assessments levied and
                                                                          agricultural loan information to validate the average rates. We
collected by FSA from tobacco manufacturers and importers of
                                                                          estimated the 28 borrowers could have saved approximately
tobacco products and based on volumes of domestic tobacco
                                                                          $277,000 over the life of the loans, had the lenders limited the
sales as reported to FSA by the manufacturers and importers.
                                                                          guaranteed loan interest rates to the OIG-calculated average
We concluded that FSA controls were, overall, adequate to
                                                                          rates. Also, FSA’s oversight review process did not include
ensure that FSA levied and collected the vast majority of
                                                                          procedures to evaluate interest rates charged by lenders. FSA
assessments. However, 90 entities that filed required reports
                                                                          officials acknowledged that controls over interest rates were not
with FSA did not pay their $58.3 million in levied assessments
                                                                          adequate and that additional controls were needed.
for FYs 2005 and 2006. CCC funded these non‑paying entities’
shares of the TTPP payments, and FSA has referred a number                In response to the audit, FSA generally agreed to simplify
of them to DOJ for debt collection. Moreover, although                    and clarify its interest rate requirements, issue guidance to its
the Department of the Treasury’s Alcohol and Tobacco Tax                  loan-approving officials for assessing compliance with such
and Trade Bureau (TTB) provides data to FSA to identify                   requirements, issue instructions to lenders to clarify their
companies for assessment, the Internal Revenue Code of 1986               responsibilities for adhering to interest rate requirements,
limits the use of such tax data, and FSA has been unable to               and require lenders to provide evidence that interest rates
pursue collection of assessments against an additional                    meet program requirements. FSA further agreed to seek legal
62 manufacturers and importers that have not reported their               advice to determine what actions could be taken in those cases
volumes of domestic sales to FSA.                                         where the lenders potentially charged higher interest rates to
                                                                          borrowers than allowed by regulations. FSA also decided to
FSA agreed to work with USDA’s Office of the General
                                                                          develop an automated system to help evaluate and monitor
Counsel (OGC) to take legal action, as necessary, to enforce




8     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                     Goal 2




interest rates. FSA will outline a specific interest rate review          produced. When FSA’s discount schedule was in place for crop
process, use the system to identify trends, and take appropriate          year 2002, the differences between the (discounted) loan rates
actions to correct any identified deficiencies. (Audit Report No.         and repayment rates were such that there were no marketing
03601-17-Ch, Controls Over Guaranteed Farm Loan Interest                  loan gains or LDPs on dry peas. After the 2003 Consolidated
Rates and Interest Assistance)                                            Appropriations Resolution ended the discount schedule,
                                                                          outlays to dry pea producers totaled approximately $14 million
Pulse Crop Production Increases After 2002 Farm Bill
                                                                          for crop year 2003. We concluded that Congress achieved its
Enacts New Pulse Crop Loan Programs
                                                                          goal of making pulse crops an attractive production option for
The 2002 Farm Bill created new Marketing Assistance Loan                  producers. The 2008 Farm Bill has since set lower loan rates for
and Loan Deficiency Payment (LDP) programs for pulse crops                pulse crops for crop years 2009 through 2012. We therefore did
(dry peas, lentils, etc.) and established national loan rates for         not make any recommendations. (Audit Report No. 03601-
such crops for the first time. We initiated this audit in response        26-KC, Methodology for Establishing National/Regional Loan
to a hotline complaint alleging that FSA was using incorrect              Rates for USDA’s Pulse Crop Loan Program)
posted county prices (PCP) to determine loan repayment rates
for dry peas, resulting in excessive payments to pea growers
                                                                          Ohio Producer Sentenced to Prison for Conversion of
and dramatic increases in planted acres of dry peas. (Generally,          Collateral Mortgaged to CCC
the loan repayment rate is the market price for the crop, often           In April 2008, a producer from Mount Sterling, Ohio, was
referred to as the PCP. When the loan rate is greater than the            sentenced in Federal court to serve 6 months in prison,
repayment rate, producers may receive a marketing loan gain               followed by 36 months of supervised release, and was ordered
when they repay the loan or, if the producer agrees to forego a           to pay $630,270 in restitution for converting collateral.
loan, the producer may receive an LDP based on the amount                 The producer obtained two CCC farm-stored loans totaling
by which the applicable loan rate exceeds the loan repayment              $630,270, and pledged 72,000 bushels of soybeans and
rate.)                                                                    125,000 bushels of corn as collateral for the loans. The
                                                                          producer was also appointed as an attorney-in-fact for two
We found the dry pea loan rate established by the 2002 Farm
                                                                          brothers in connection with their $61,920 FSA/CCC loan,
Bill was significantly higher than the PCPs for feed peas. FSA
                                                                          which was secured by an additional 12,000 bushels of soybeans.
had concluded the loan rates set by Congress under the 2002
                                                                          The OIG investigation disclosed that the producer converted
Farm Bill reflected food quality (U.S. No. 1 grade) dry peas
                                                                          all of the soybeans and corn and used the funds to purchase a
and lentils, rather than feed grade dry peas and U.S. No. 3
                                                                          lakefront vacation home, two race cars, and a race boat.
grade lentils. Therefore, for lower quality 2002 crop dry peas
and lentils, FSA applied discounts to the established loan                Producer Sentenced for Converting Loan Collateral
rates. Subsequently, in the 2003 Consolidated Appropriations
                                                                          In May 2008, a producer from Albert City, Iowa, was sentenced
Resolution, Congress mandated that pulse crop loan rates
                                                                          in Federal court to serve 71 months in prison, followed by
(specific rates prescribed by law) and loan repayment rates
                                                                          36 months of probation, and ordered to pay $1.2 million
be based on feed grade dry peas and U.S. No. 3 grade lentils,
                                                                          in restitution. The investigation disclosed that, in 2001, the
effectively terminating FSA’s loan discount schedule.
                                                                          producer, who was a convicted felon, pledged 62,000 bushels
Since Congress passed the 2003 Consolidated Appropriations                of grain as collateral for a CCC loan, even though much of the
Resolution, FSA’s rates have adhered to the legislation.                  grain belonged to other producers. The producer subsequently
However, planted acres; production; and numbers and                       sold some of the mortgaged grain and failed to remit sales
amounts of loans, marketing loan gains, and LDPs increased                proceeds to FSA. In 2003, the producer made false statements
substantially since inception of the program. This occurred,              to a local bank to obtain a loan for $2.5 million and, in 2004,
in part, because the established loan rate for feed peas is               committed bankruptcy fraud by failing to disclose his assets,
significantly higher than the PCPs for feed peas. This disparity          incomes, and debt structure to a Bankruptcy Trustee. In July
allows producers to receive benefits greater than if the loan             2008, the producer, who was scheduled to surrender to the
rates were adjusted for the quality of the commodity actually             U.S. Marshals to begin his prison term, committed suicide.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half        9
                                                                  Goal 2




Risk Management Agency (RMA) Claims for Aflatoxin-                     in eight States develop infrastructure, improve transportation,
Infected Corn                                                          encourage business, and train workers. (Audit Report No.
                                                                       62099-02-Te, Controls Over Issuance of Appropriated Funds
RMA insures corn producers against economic losses due to
                                                                       by DRA – FYs 2005-2007)
aflatoxin (a toxic fungus byproduct) infecting their harvests.
Of the 2,453 claims for crop year 2005 for aflatoxin-infected          Payment Limitation Provisions Were Violated,
corn in Texas, totaling $17.5 million, we identified 2,033             Allowing Two Partnerships To Improperly Receive
claims where the value established for infected corn was               More Than $1.4 Million in Program Payments
extremely low—$.25 or less per bushel. In 394 of 397 claims            We found that two partnerships in Louisiana were not separate
selected for more detailed review, we found that the approved          and distinct for payment limitation purposes and, hence, had
insurance providers (AIP) accepted extremely low values                applied for and received more than $1.4 million in improper
(from $.08 to $.25) for infected corn but that producers later         farm program payments. They were operating as one farming
sold this infected corn for prices ranging from $.80 to $2.30          operation to conceal the true interest of one individual, a
per bushel—5 to 28 times the value used to calculate the               medical doctor. Each partnership was composed of 3 individual
indemnity. Because the AIPs failed to ensure that their adjusters      partners and 3 corporate partners, resulting in 12 separate
were using reasonable values for the producers’ corn, the AIPs         payment limitations for the 2 partnerships. The six individuals
paid Texas producers indemnities of $15.9 million.                     were related and constituted the stockholders in the six
We recommended that RMA issue administrative findings                  corporations.
to recover the portion of improper payments resulting                  The partnerships did not maintain funds and accounts
from the cited $15.9 million in claims; revise the current             separate from each other, and the members did not exercise
Loss Adjustment Manual (LAM) procedures to require                     separate responsibility for their interests. The same equipment
that AIPs use the proposed graduated discount factors to               (mostly owned by the doctor) was shared by the partnerships
compute a preliminary settlement for losses due to aflatoxin           for farming operations, funds were shifted between the
contamination and adjust the preliminary settlement based              partnerships and the doctor, and some operating expenses were
on the final sales price or market values determined for the           not paid timely to individuals or entities with direct or indirect
crop upon final disposition, withholding final settlement of           interests in the partnerships’ farming operations or were not
claims until the date of final disposition; and notify all AIPs        proportionately shared between the partnerships.
that the current LAM procedures require that claims with
aflatoxin levels exceeding levels set by the Federal or State          The Louisiana State FSA Committee agreed with our findings
Government or any other regulatory body cannot be finalized            and, in response to our recommendations, determined that
until the final disposition of the crop. RMA agreed to pursue          the members of the partnerships did not meet the procedural
the overpayments but did not agree with having to track them.          requirements to be recognized for separate payment limitations
In addition, RMA agreed that the LAM procedures need to be             and that the members of the partnerships adopted and
strengthened but did not agree that claims should remain open          participated in a scheme or device designed to evade payment
until final disposition. (Audit Report No. 05601-15-Te, Crop           limitation and payment eligibility provisions for the years 2000
Loss and Quality Adjustments for Aflatoxin-Infected Corn)              through 2002. FSA began collection on resultant overpayments
                                                                       of about $1.4 million. (Audit Report No. 03099-181-Te,
Delta Regional Authority (DRA) Appropriately                           Payment Limitation Review in Louisiana)
Accounted for Funds
                                                                       Grantee Failed To Comply With Federal Regulations
We found that DRA is accounting for appropriated funds and
                                                                       and Rural Utilities Service (RUS) Grant Agreements
tracking grantee adherence to Federal regulations and DRA
policy. Our review of DRA’s operations for FYs 2005-2007               We conducted a closeout audit of seven RUS broadband grants
disclosed no substantial matters of concern. DRA, a Federal-           to determine whether the grantee incurred any allowable
State partnership, helps economically distressed communities           expenditures between the date of the last RUS compliance
                                                                       review, March 18, 2005, and the suspension date of the grants,




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                   Goal 2




September 30, 2005, or whether there were any other costs
incurred that RUS should credit. We found that the Texas                    GOVERNMENTWIDE ACTIVITIES – GOAL 2
grantee failed to abide by the terms of the grant agreements and
                                                                            Review of Legislation, Regulations, Directives,
did not comply with Federal regulations. We determined that
                                                                            and Memoranda
the grantee’s request for funding far exceeded the immediate
need for reimbursement. The grantee requested and received                  n	   In connection with our audit of FSA’s TTPP
approximately $1.9 million of the $2.7 million authorized for                    assessments, OIG provided comments and feedback
the seven grants. Specifically, the grantee requested the entire                 to FSA on a draft revision to TTPP regulations.
                                                                                 FSA included the term “third parties” to describe
amount budgeted for line items as reimbursement for expenses
                                                                                 those to whom FSA would release the market share
incurred even though it had not expended that amount almost
                                                                                 data of tobacco manufacturers and importers. OIG
2 years later. Also, in many instances, the grantee claimed
                                                                                 commented that FSA could be in violation of the
reimbursement for expenses that were not allowable according                     Internal Revenue Code of 1986 (26 U.S.C. 6103)
to Federal regulations or were not properly supported by                         if FSA disclosed any information about a company
adequate documentation. RUS agreed to require the grantee to                     that was not provided to FSA directly from the
refund $429,159 in Federal grant funds received. (Audit Report                   manufacturers and importers. The final rule dated
No. 09601-6-Te, Texas Community Connect Grantee Close-                           April 29, 2008, states that, in future assessment
Out Audit)                                                                       notices, FSA will release to reporting manufacturers
                                                                                 and importers the qualifying market share of other
                                                                                 manufacturers and importers, based solely on
                                                                                 information supplied by the reporting manufacturer
                                                                                 or importer to FSA. This is a deviation from the
                                                                                 language in the original draft we reviewed, as FSA is
                                                                                 no longer including the term “third party” to describe
                                                                                 who will be receiving the market share information.

                                                                            Participation on Committees, Working Groups,
                                                                            and Task Forces
                                                                            n	   Since November 2005, OIG Special Agents have
                                                                                 been working on Hurricanes Katrina/Rita Task
                                                                                 Force investigations in Mississippi and Louisiana.
                                                                                 To date, OIG has conducted 75 cases in which
                                                                                 FNS, FSA, and Rural Development (RD) have been
                                                                                 defrauded by individuals who have submitted false
                                                                                 claims or provided false statements to obtain Federal
                                                                                 benefits. From June 2006 to date, 103 individuals
                                                                                 have been indicted, 50 have been convicted and
                                                                                 sentenced, and fines and restitution thus far have
                                                                                 totaled $26,725 and $691,568, respectively. The
                                                                                 judicial process continues with 53 additional subjects
                                                                                 that have pled guilty or are awaiting trial. The task
                                                                                 force is expected to continue through FY 2009.
                                                                            n	   An OIG Special Agent has been working with
                                                                                 the FBI’s Safe Streets Task Force in Indianapolis,
                                                                                 Indiana, since 2000. The mission of the task force
                                                                                 is to deter street gang and drug-related violence, as




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half             11
                                                                  Goal 2




       well as seek the most significant fugitives wanted                  n	    management controls over research agreements (ARS),
       for crimes of violence through long-term, proactive,
                                                                           n	    management controls over the Market
       and coordinated teams of Federal, State, and local
                                                                                 Access Program (FAS),
       law enforcement officers and prosecutors.
                                                                           n	    Pasture, Rangeland, and Forage Programs (RMA),
 n	    OIG Special Agents are participating on a Bridge Card
       Enforcement Team (BCET) task force to investigate                   n	    citrus indemnity payments resulting from
       criminal violations of the Food Stamp Program and                         2005 Florida hurricanes (RMA),
       WIC. Members include the Michigan State Police
                                                                           n	    implementation of AIPs’ appendix IV/
       and IRS CI. The FBI, Social Security Administration
                                                                                 quality control reviews (RMA),
       OIG, and ICE have provided assistance during warrant
       operations. The initiative, which has been operational              n	    Catastrophic Risk Protection Program (RMA),
       since June 2007, has resulted in 64 arrests and 73
                                                                           n	    Farm and Ranch Lands Protection Program, review
       search warrants served in the Detroit metropolitan
                                                                                 of non-governmental organizations (NRCS),
       area. Criminal prosecutions are being pursued through
       the U.S. Attorney’s Office for the Eastern District of              n	    FSA and NRCS methods to assess
       Michigan and the Michigan Attorney General’s Office.                      integrity of programs,
       To date, work in this area has resulted in 27 guilty
                                                                           n	    Conservation Loan and Loan Guarantee
       pleas, and sentences that include incarceration, fines,
                                                                                 Program (NRCS and FSA),
       and restitution. Forfeiture actions of $1.6 million have
       also been initiated by the U.S. Attorney’s Office. The              n	    Midwest disaster assistance programs
       task force is expected to continue through FY 2009.                       (FSA, NRCS, and RD),
                                                                           n	    FS administration of grants,
 ONGOING AND PLANNED REVIEWS FOR GOAL 2                                    n	    Rural Business-Cooperative Service’s (RBS)
 Topics that will be covered in ongoing or planned reviews                       Intermediary Relending Program,
 under Goal 2 include:                                                     n	    effectiveness and enforcement of debarment and
                                                                                 suspension regulations throughout USDA,
 n	    Child and Adult Care Food Program (FNS),
                                                                           n	    controls over lender activities in the Single
 n	    WIC vendor monitoring (FNS),
                                                                                 Family Housing (SFH) Guaranteed Loan
 n	    continued monitoring of EBT implementation (FNS),                         Program (Rural Housing Service (RHS)),
 n	    2008 Farm Bill changes to payment limitation (FSA),                 n	    Rural Rental Housing maintenance costs
                                                                                 and inspection procedures (RHS), and
 n	    adjusted gross income limitation (NRCS and FSA),
                                                                           n	    distance learning and telemedicine
 n	    price discovery efforts for various crops
                                                                                 grants and loans (RD).
       reported nationwide (National Agricultural
       Statistics Service (NASS)),                                         The findings and recommendations from these efforts will
 n	    implementation of the Average Crop Revenue                          be covered in future Semiannual Reports as the relevant
       Election (ACRE) Program (FSA),                                      audits and investigations are completed.

 n	    implementation of the Supplemental Agricultural
       Disaster Assistance Programs (FSA),




12    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                  Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                 In the second half of FY 2008, we devoted 37 percent of
                                                                      our total direct resources to Goal 3, with 98.2 percent of
Support USDA in implementing its management                           these resources assigned to critical/high-impact work. A
improvement initiatives.                                              total of 97.6 percent of our audit recommendations under
                                                                      Goal 3 resulted in management decision within 1 year, and
OIG conducts audits and investigations that focus on such
                                                                      87.6 percent of our investigative cases resulted in criminal,
areas as improved financial management and accountability, IT
                                                                      civil, or administrative action. OIG issued 11 audit reports
security and management, research, real property management,
                                                                      under Goal 3 during this reporting period and a total of 25
employee corruption, and the Government Performance
                                                                      during the full fiscal year. OIG investigations under Goal
and Results Act. Our work in this area is vital because the
                                                                      3 yielded 30 indictments, 34 convictions, and $3.5 million
Department is entrusted with $128 billion in public resources
                                                                      in monetary results during the reporting period and a total
annually. The effectiveness and efficiency with which USDA
                                                                      of 32 indictments, 34 convictions, and about $4 million in
manages its assets are critical. USDA depends on IT to
                                                                      monetary results during the full fiscal year.
efficiently and effectively deliver its programs and provide
meaningful and reliable financial reporting. One of the more
significant dangers USDA faces is a cyberattack on its IT
infrastructure, whether by terrorists seeking to destroy unique
databases or criminals seeking economic gains.


  Management Challenges Addressed UNDER GOAL 3
  n	    Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1, 2, and 4)
  n	    Implementation of Strong, Integrated Internal Control Systems Still Needed (also under Goal 2)
  n	    Continuing Improvements Needed in IT Security (also under Goal 1)
  n	    Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
  n	    USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
        Producers To Meet the Global Trade Challenge (also under Goal 1)
  n	    Better FS Management and Community Action Needed To Improve the Health of the National
        Forests and Reduce the Cost of Fighting Fires (also under Goals 1 and 4)
  n	    Implementation of Renewable Energy Programs at USDA


EXAMPLES OF AUDIT AND INVESTIGATIVE                                   appropriated for renewable energy did not place sufficient
WORK FOR GOAL 3                                                       emphasis on renewable energy, including analyzing proposed
                                                                      projects to identify those that would provide the greatest
USDA’s Implementation of Renewable Energy                             benefit for the funds expended. We found that no agency
Activities Needs Improvement                                          within the Department analyzed the results of completed
We reviewed renewable energy activities in USDA at the                commercialization projects to compare expected and actual
Department level and at seven agencies (ARS, CSREES, FSA,             renewable energy results. In the research area, the Department
FS, NRCS, RBS, and RUS). We found that USDA does                      was not always performing work in high-priority areas. We also
not have a renewable energy strategy covering all agencies            found that the Department had not established controls to
and programs within the Department. Consequently,                     prevent or detect duplicate funding to recipients of loans and
agency managers for programs that did not receive funds               grants for renewable energy projects. In addition, in




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half           13
                                                                  Goal 3




FY 2006, the Department understated renewable energy                   CSREES Needs To Strengthen Oversight of Funding
activities reported to OMB by up to $97 million.                       Grant Projects and Ensure Consistent Information Is
The Department agreed to develop and implement a renewable             Reported on Renewable Energy
energy strategy that includes program goals for agency                 Our review of the National Research Initiative Competitive
managers, a detailed course of action to accomplish those              Grants Program (NRICGP) found that while CSREES
goals, and measures to evaluate performance; develop and               implemented processes for evaluating, prioritizing, and funding
implement controls for agencies to check for duplicate funding         grant proposals, it did not develop written guidance on how to
of renewable energy projects; and revise the renewable energy          use its research information system as an oversight tool to check
reporting format to ensure that all renewable energy funding is        for duplicate funding or monitor work performed. As a result,
reported. (Audit Report No. 50601-13-Ch, Implementation of             CSREES had reduced assurance that grant funds were used
Renewable Programs in USDA)                                            for intended purposes. We also found that CSREES had not
ARS Needs a Process To Evaluate the Continued                          fully reported all renewable energy activity to the Department.
                                                                       This occurred because CSREES’ program staff did not follow
Relevance of Its Renewable Energy Research
                                                                       the Office of Budget and Program Analysis (OBPA) guidance,
Projects and To Report Renewable Energy Research
                                                                       which lists everything that should be included to determine
Activities Accurately
                                                                       the activity to report. CSREES agreed to document policies
We generally did not find problems with ARS’ administration            and procedures to review the information system for duplicate
of renewable energy research, but we did note that in some             research and will incorporate guidance to determine the
cases the agency’s efforts were directed toward areas of               renewable activity to report to the Department. (Audit Report
questionable benefit. Since the inception of the Bioenergy and         No. 13601-01-Hy, NRICGP)
Energy Alternatives National Program in April 1999, ARS
has followed a 5-year cycle for its research projects. Although        FS Needs To Implement a National Strategy for and
the agency reviews its ongoing research projects annually,             Establish Controls To Track Its Renewable Energy
this review does not evaluate the continued importance or              Resources
relevance of ongoing research in terms of outside factors such         Our review of FS’ Renewable Energy Program concluded
as changing economic conditions. In addition, research projects        that FS has made strides toward increasing renewable energy
that continue for 5 years without being re-evaluated may not           production—especially in using woody biomass—but still
address new priorities set by the Administration or by Congress.       needs to develop a national strategy with annual performance
Specifically, our review of 7 of 29 ARS biofuels research              measures for renewable energy resources in national forests.
projects disclosed that 3 were targeted toward either process          Further, FS needs to more effectively track its renewable
improvements or the identification of saleable co-products             energy resources (wind, solar, hydropower, geothermal, and
to benefit the corn ethanol industry. These projects began             woody biomass) to ensure they meet the goals of the National
from 2000 to 2004, but outside economic factors allowed the            Energy Policy and the President’s Advanced Energy Initiative.
corn ethanol industry to expand and mature even without                Otherwise, FS lacks a proactive plan to increase the use of
the benefits of this ongoing research. This conclusion was             renewable energy resources and cannot measure its success in
also reached by an independent panel of experts performing a           increasing production.
retrospective review of ARS’ Bioenergy and Energy Alternatives
                                                                       We also determined that FS lacks controls to ensure that the
National Program in 2007. While highly supportive of ARS’
                                                                       reimbursements to Woody Commercial Biomass Utilization
biofuels research program overall, the reviewers noted that
                                                                       Program grant recipients match the expenses incurred by them.
because corn ethanol was now viable on its own, little or no
                                                                       Finally, FS does not have formal procedures to ensure that
public funding for research was justified. ARS generally agreed
                                                                       its research projects do not duplicate other USDA research
with our findings and recommendations. (Audit Report No.
                                                                       projects. FS relies on information recorded in the Current
02601-2-Ch, Implementation of Renewable Energy Programs
                                                                       Research Information System (CRIS) to prevent research from
at ARS)




14     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                     Goal 3




being duplicated. However, the agency has not developed                   FSA Did Not Correctly and Consistently Determine
guidance on when its research units should enter their research           Eligibility for the Emergency Forestry Conservation
projects into CRIS or use CRIS to check for duplicative                   Reserve Program (EFCRP)
research.
                                                                          Our review of 55 EFCRP offers identified potential
FS generally concurred with our findings, agreed to take                  overpayments of $814,430 for 11 offers, of which FSA
corrective actions to implement the recommendations, and                  corrected $655,520 during our fieldwork. The purpose of
stated its belief that the corrective actions would benefit the           EFCRP is to provide assistance to owners and operators
overall renewable energy program. (Audit Report No. 08601-                of private non-industrial forestland who suffered at least
52-SF, FS’s Renewable Energy Program)                                     35 percent losses of merchantable timber as a result of the
RBS Could Improve Its Renewable Energy Activities                         2005 Hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma.
                                                                          Some errors occurred because the agency’s procedures did
We found that RBS funded many worthwhile renewable energy                 not provide clear guidelines for determining the eligibility of
projects that have had a positive impact, including ethanol               offers. For example, we found three offers that were considered
and bio-diesel production facilities, wind and solar power                eligible for EFCRP although all or part of the offered acres
generation projects, and landfill recovery systems. However,              had been clear-cut before the qualifying hurricanes. In other
we found that more emphasis could have been placed on                     cases, FSA employees and technical service providers did not
renewable energy projects in the five programs where funds                determine eligibility in accordance with procedure. We also
were not appropriated for that purpose, in part, because field            found that Alabama, Mississippi, and Texas used different
staff were not using selection criteria developed by the national         methodologies to determine the value of damaged trees, which
office that benefited applications involving renewable energy             caused differences in applicants’ calculated loss percentages and
projects. RBS also had not identified the projects that would             eligibility.
provide the highest energy output per amount funded on the
project. Further, agency officials had not analyzed the results of
completed projects to compare expected and actual renewable
energy outcomes.
In addition, the agency had not developed effective and formal
internal controls to prevent applicants from receiving duplicate
funding from RBS’ six programs with renewable energy activity
or even to detect duplication when it did occur. Moreover,
RBS underreported renewable energy activities to OBPA by
more than $38 million for FY 2006 because agency officials
misunderstood reporting requirements but did not contact
OBPA for guidance.
We found no instances where funds spent on renewable energy
projects were provided to ineligible applicants and no instances
                                                                          This is part of 54.1 acres that were clear-cut on a tract of land
where funds specifically appropriated for renewable energy
                                                                          before Hurricane Katrina. OIG photo.
activities were diverted to other purposes. RBS generally agreed
with the findings and recommendations. (Audit Report No.                  FSA agreed to clarify guidelines and terminology that had
34600-5-Ch, Implementation of Renewable Energy Programs                   been subject to interpretation by the agency’s State and county
in RBS)                                                                   employees and State forest agency personnel, require second-
                                                                          party or other reviews to ensure offers are eligible before
                                                                          accepting contracts, and review all questionable EFCRP offers
                                                                          not corrected during our audit and take appropriate corrective




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half               15
                                                                   Goal 3




action. The audit was conducted as part of the President’s              Management Controls Need To Be Strengthened Over
Council on Integrity and Efficiency (PCIE) examination of the           RMA’s Oversight of Agricultural Risk Protection Act of
Federal Government’s relief efforts after Hurricanes Katrina            2000 (ARPA) Contracts and Partnership Agreements
and Rita. (Audit Report No. 03601-24-KC, Hurricane Relief
                                                                        ARPA provided RMA with the authority to enter into research
Initiatives: EFCRP)
                                                                        and development contracts and partnerships for new or
FAS Needs To Strengthen Certain Aspects of the                          expanded crop insurance products. Our audit did not find any
Export Credit Guarantee Program                                         improprieties when we examined whether RMA effectively
Our review generally found that FAS had developed,                      implemented and properly monitored ARPA contracts and
implemented, and demonstrated a commitment to the                       partnership agreements awarded during FYs 2004 through
necessary internal controls for the General Sales Manager               2006. However, we determined that RMA should strengthen
(GSM) 102 program, which provide guarantees for                         its management controls over documenting, monitoring, and
commercial financing by U.S. private banking institutions               administering ARPA research and development contracts
of U.S. agricultural exports. Our audit did note areas where            and partnership agreements and over the training of officials
improvements could be made to the program’s internal controls           responsible for administering these contracts and partnership
and where formalizing the controls is needed.                           agreements. The weaknesses we identified could potentially
                                                                        reduce the assurance that ARPA contract and partnerships
In September 2004, the World Trade Organization ruled that              provisions were being met.
this export credit guarantee program included a subsidy that
was in violation of the trade agreement. Unless the subsidy             We recommended that RMA officials establish and implement
matters were resolved by July 1, 2005, a $4 billion trade               formal policies and procedures on sufficient documentation
sanction would be imposed on the United States. In response,            and proper administration and monitoring of ARPA contracts
FAS implemented a country risk-based premium structure for              and partnerships. We also recommended RMA officials
the GSM‑102 program in July 2005 to reduce the subsidy. We              establish and implement a formal training plan, including
found, however, that the risk associated with the soundness of          completing training needs assessments and internally tracking
the foreign bank was not considered in the premium structure.           continuous learning received by program officials responsible
FAS agreed to develop a new guarantee fee structure that                for administering and monitoring ARPA contracts and
includes the financial risk of both the foreign country and the         partnerships. RMA officials generally agreed and stated that
foreign bank itself.                                                    they planned to issue formal policies and procedures after
                                                                        reviewing the recommendations. (Audit Report No. 05099-
FAS also needs to develop and implement controls for                    112-KC, Contracting for Services Under ARPA)
safeguarding GSM‑102 claim files. In September 2005, the
control of claim files was divided between FAS (for foreign             Improper Reimbursement Requirements and Ill-
privately owned banks) and FSA (for foreign government-                 Defined Missions Increase Costs and May Hinder FS
sponsored banks). We identified that the claim files for                Operations
privately owned banks located in three countries had not been           In a national disaster, FS can be directed by the Federal
transferred to FAS at the time of our fieldwork and could not           Emergency Management Agency (FEMA) to help respond to
be readily produced. FAS officials were later able to provide           the emergency. FS recoups its expenses from Federal disaster
these records for our review. Subsequent to our audit fieldwork,        relief funds, subject to FEMA’s approval. Our audit found that
control and possession of all claim files were transferred to           FEMA did not follow directions contained in the National
FAS. (Audit Report No. 07601-2-Hy, Export Credit Guarantee              Response Plan (NRP) on reimbursements to Federal agencies.
Program)                                                                NRP directs FEMA to rely on agencies’ internal controls to
                                                                        ensure expenses are accurate and allowed, while FEMA required
                                                                        FS to provide expensive and unnecessary documentation to
                                                                        justify every expense. FEMA denied reimbursements for




16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                      Goal 3




63 percent ($117 million) of the $186 million FS spent. This               Report No. 11401-29-FM, FY 2008 Agreed-Upon Procedures:
reduced critical firefighting funds and left FS responsible                Retirement, Health Benefits, and Life Insurance Withholdings/
for expenses incurred supporting FEMA’s disaster relief. A                 Contributions and Supplemental Semiannual Headcount
subsequent audit by DHS OIG (coordinated with USDA                         Report Submitted to OPM)
OIG) demonstrated that FS had an error rate of only 0.003
                                                                           Rural Telephone Bank (RTB) Final Liquidation and
percent, or $490.63 out of $15 million in sampled transactions.
                                                                           Dissolution Activities Met Standards
Our audit also found that FS had accepted mission assignments
from FEMA that were poorly defined and ill-suited to FS’                   We performed a limited scope closeout audit of RTB to
training and expertise, wasting resources and endangering                  evaluate whether the dissolution and liquidation activities of
personnel.                                                                 RTB subsequent to the final RTB financial statement audit as
                                                                           of September 30, 2006, were conducted according to prescribed
FS agreed to elevate the reimbursement issues to the
                                                                           accounting principles relating to disbursements. RTB had
Undersecretary of DHS; continue its efforts in meeting with
                                                                           approximately $40 million available for final distribution as
FEMA to establish the appropriate “reverse” chargeback
                                                                           of September 30, 2006, which was subsequently paid to the
amount upon receipt of the DHS OIG audit results; create
                                                                           bank’s stockholders. The distribution payment calculations
a formal Memorandum of Understanding (MOU) between
                                                                           for each shareholder were based on Section 411 of the Rural
FS and FEMA to establish agreed-upon procedures for
                                                                           Electrification Act. We concluded that RD and RTB conducted
reimbursement, property, and missions; and use the dispute
                                                                           the final dissolution and liquidation activities according to
resolution process to resolve any future conflicts with
                                                                           prescribed accounting principles relating to disbursements.
FEMA. (Audit Report No. 08601-51-SF, FS Controls Over
                                                                           (Audit Report No. 15401-08-FM, RTB Closeout Audit)
Documenting and Reporting Its Hurricane Relief Expenditures
to FEMA)                                                                   Operation Talon Update—1,910 Arrests in 7 States
                                                                           During This Reporting Period
National Finance Center (NFC) Receives First
Unqualified Opinion on Its General Controls                                OIG began Operation Talon in 1997 to locate and apprehend
                                                                           fugitives, many of them violent offenders, who are current
USDA’s NFC received its first unqualified opinion on its
                                                                           or former food stamp recipients. As of September 30, 2008,
general control environment. Our review disclosed that NFC‘s
                                                                           Operation Talon had resulted in 13,905 arrests of fugitive
description of controls presented fairly, in all material respects,
                                                                           felons during joint OIG-State and local law enforcement
the relevant aspects of NFC controls that had been placed
                                                                           operations. During this reporting period, OIG agents
in operation as of June 30, 2008. Also, in our opinion, the
                                                                           conducted Talon operations in 7 States, making a total of 1,910
controls included in the description were suitably designed and
                                                                           arrests. OIG combined forces with Federal, State, and local
operating with sufficient effectiveness to provide reasonable
                                                                           law enforcement agencies to arrest 937 fugitives in Ohio, 507
assurance that associated control objectives would be achieved.
                                                                           in Tennessee, 401 in Massachusetts, 35 in California, 16 in
(Audit Report No. 11401-28-FM, Statement on Auditing
                                                                           Maryland, 8 in Oregon, and 6 in Arizona for offenses including
Standards No. 70 Report on the NFC General Controls – FY
                                                                           homicide, arson, assault, burglary, motor vehicle theft, assorted
2008)
                                                                           drug charges, robbery, fraud, forgery, driving under the
Retirement, Health, and Life Insurance Withholdings/                       influence, extortion and blackmail, rape, sex offenses, offenses
Contributions Were Reasonable                                              against family and children, larceny, stolen property, weapons
                                                                           violations, and other offenses.
As required annually by OMB, we assisted the Office of
Personnel Management (OPM) in assessing the reasonableness                 Former USDA Employee Sentenced for Computer
of retirement, health, and life insurance withholdings/                    Fraud
contributions and employee data submitted by the Office of
                                                                           In May 2008, a former FSA employee in Missouri was
the Chief Financial Officer (OCFO)/NFC. We found that no
                                                                           sentenced in Federal court to serve 60 months of probation
differences exceeded the allowable OPM thresholds. (Audit
                                                                           and was ordered to pay $35,207 in restitution and a $100




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half        17
                                                                    Goal 3




special assessment. The former employee used her Government              in operation. Also, in our opinion, the policies and procedures
computer to embezzle approximately $35,207 in FSA program                were suitably designed to provide reasonable assurance that
payments over 18 months by issuing FSA payments in the                   control objectives would be achieved and operate effectively.
names of inactive or deceased producers. The woman then                  (Audit Report No. 88501-12-FM, FY 2008 Statement on
deposited the funds electronically into her personal bank                Auditing Standards No. 70, Report on the NITC General
account. OIG’s NCFD provided computer forensics assistance               Controls)
in this case.
                                                                         OCFO Strengthened Controls for Individually Billed
Stronger Controls Needed To Protect USDA Data                            Travel Cards
When Using Wireless Connections                                          In June 2003, OIG issued a report finding inadequacies in
We evaluated security controls in place over the use of wireless         USDA’s internal controls over the individually billed travel
technology connected to USDA networks and the controls that              card program (Audit Report No. 50601-05-HQ). In a new
Office of the Chief Information Officer (OCIO) and selected              report, we determined that our prior recommendations had
agencies had over wireless devices. We found that controls               been implemented and that internal controls for the program
over wireless connections were inadequate and that stronger              had been strengthened. For example, in response to our
oversight was needed by OCIO. OCIO concurred with our                    recommendation, OCFO restricted travel card use at vendors
recommendations and has proposed additional corrective                   that offered services and/or products that are non-travel
actions. (Audit Report No. 50501-09-FM, Management and                   related. In addition, OCFO instituted analytical procedures to
Security Over USDA Wireless Connections)                                 monitor the use of travel cards. Finally, we noted that OCFO
                                                                         is implementing OMB requirements for credit checks and
Information Technology (IT) Improvements Have
                                                                         training for program participants. Based on our testing, we did
Been Made, but More Are Needed for an Effective
                                                                         not find the level of misuse that had been evident in our prior
Department Security Plan                                                 audit. We found USDA and its agencies taking an active role
Our review determined that the Department has improved                   in monitoring the use of the individually billed cards. Based
its IT security oversight in several areas during FY 2008. For           on data from OCFO, the delinquency rates for the agencies
example, oversight of the certification and accreditation process        we reviewed had declined. As such, our new report made no
has significantly improved. However, a continuing material               recommendations. (Audit Report No. 50601-04-Hy, Adequacy
IT control weakness exists within the Department because                 of Internal Controls Over Travel Card Expenditures Followup)
of the lack of an effective Departmentwide plan. Although
improvements were noted, weaknesses still remain in updating
                                                                         APHIS Is Performing Transfers in Accordance With
software, finding and fixing vulnerabilities, and using standard
                                                                         Appropriations Language
security settings. With such a large and diverse Department,             We audited APHIS’ Veterinary Services (VS), at the request of
ensuring that all agencies comply with standards will take               a Member of Congress, to determine whether APHIS VS was
time and resources. OCIO is working diligently toward this               inappropriately transferring program funds. We found that the
goal. (Audit Report No. 50501-13-FM, FY 2008 Federal                     questioned transfers are between fund accounts of programs
Information Security Management Act Report)                              within APHIS VS; therefore, APHIS is performing transfers in
                                                                         accordance with appropriations language and agency guidelines.
OCIO/National Information Technology Center’s
                                                                         We also determined that APHIS is accurately tracking time and
(NITC) Controls Were Suitably Designed and                               attendance information as submitted by its employees. Based
Operating Effectively                                                    on our testing, we did not find that APHIS was mischarging
Our review of OCIO/NITC internal controls as of June 30,                 expenses. (Audit Report No. 33601-03-Hy, APHIS’ Transfer
2008, disclosed that the documentation of control objectives             Authority of Program Funding)
and techniques provided by OCIO/NITC presented fairly,
in all material aspects, the relevant aspects of OCIO/NITC’s
controls taken as a whole and those controls had been placed




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                  Goal 3




GOVERNMENTWIDE ACTIVITIES – GOAL 3                                         n	   Government Credit Card Abuse Prevention Act of 2008.
                                                                                OIG reviewed S. 789, which proposes new safeguards
Review of Legislation, Regulations, Directives,                                 and internal controls for use of Government travel
and Memoranda                                                                   charge cards and purchase cards. OIG recommended
                                                                                that language be added to clarify that an “approving
n	   Federal Information Infrastructure Response Act of 2008.
                                                                                official” charged with approval and disapproval of
     OIG reviewed this draft Senate bill, which proposed
                                                                                expenditures of a particular cardholder must not be
     to amend 44 U.S.C. § 2545(a)(1), requiring the PCIE
                                                                                subject to the supervisory control of such cardholder.
     to annually review, update, and accept information
                                                                                OIG also recommended that the provisions regarding
     security standards. OIG commented that, because
                                                                                referral of suspected employee fraud to the U.S.
     the PCIE does not have separate appropriations and
                                                                                Attorney’s office be strengthened to clarify that such
     relies upon staff from member OIGs to perform its
                                                                                referrals be made for criminal or civil prosecution,
     various functions, this new requirement would take
                                                                                as appropriate. Finally, OIG noted that the penalties
     away resources from various Inspectors General (IG)
                                                                                differed for violation of travel charge card regulations
     that could otherwise be used to address waste, fraud,
                                                                                and purchase card regulations, in that the latter were
     and abuse in their respective agencies. Additionally,
                                                                                more detailed. Although OIG recognized that there
     OIG suggested that the drafters of the bill clarify
                                                                                are inherent differences between the two types of
     the role of the PCIE, to include who would initially
                                                                                cards, OIG felt that certain actions, specifically referral
     develop information security standards. If the PCIE
                                                                                of allegations of fraud to the IG, should be taken
     were to develop such standards, it might conflict
                                                                                regardless of which type of card is involved. Therefore,
     with the IG Act’s prohibition on an IG playing
                                                                                OIG recommended that such provisions also be
     an operational or policy-making role. Lastly, OIG
                                                                                added to the section regarding travel charge cards.
     noted that, if the PCIE were to set Governmentwide
     information security standards, it would create a                     Participation on Committees, Working Groups,
     conflict with the Federal auditing standards issued                   and Task Forces
     by the Government Accountability Office (GAO).
                                                                           n	   PCIE Legislation Committee. The USDA IG continues
n	   Strengthening Transparency and Accountability in Federal                   to serve the Federal IG community as the Chair of
     Spending Act of 2008. OIG reviewed S. 3077, which                          the Legislation Committee of the PCIE. During
     would, in part, require OIG to review a statistically                      the reporting period, the Legislation Committee
     representative sample of agency Federal awards every                       held several meetings to discuss pending bills that
     6 months. Such reviews would be conducted to verify                        would amend the IG Act and provided comments as
     the accuracy of the data and that data standards are                       requested to the House Oversight and Government
     being followed. OIG commented that reviewing                               Reform Committee and the Senate Homeland Security
     USDA’s payment data is an internal control process                         and Governmental Affairs Committee (HSGAC).
     that is already a responsibility of the Department, as                     On April 23, 2008, the Senate passed S. 2324, the
     set forth in current OMB guidance. As such, requiring                      “Inspector General Reform Act of 2007” (the Senate
     OIG to conduct such reviews would be potentially                           counterpart to H.R. 928, the “Improving Government
     duplicative. Furthermore, due to OIG’s other                               Accountability Act”). After conferencing, H.R. 928
     Congressionally mandated audits, OIG was concerned                         was amended and renamed the “Inspector General
     that the new requirements would be overly burdensome                       Reform Act of 2008.” The Senate passed H.R. 928 on
     and potentially limit OIG’s ability to fulfill its primary                 September 24, 2008, by unanimous consent, and the
     mission of detecting and deterring waste, fraud, and                       House passed it on September 27, 2008, by a vote of
     abuse. Therefore, OIG recommended that the section                         414-0. (The President signed the legislation after the
     mandating the semiannual reviews be deleted or,                            end of the reporting period on October 14, 2008.)
     in the alternative, revised to call for periodic rather
     than semiannual reviews, subject to OIG discretion                    	    On an ongoing basis, the Legislation Committee
     regarding the scope and purpose of such reviews.                           monitored and tracked all IG-related legislation that




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half              19
                                                                Goal 3




       was introduced in Congress and kept the affected                       and grant activities. The task force has worked to
       IGs notified of these bills’ progress. The committee                   better allocate resources and improve coordination
       considered specifically the requirements that would                    in procurement and grant fraud cases and otherwise
       be imposed upon OIGs and their host establishments                     to accelerate investigations and prosecutions. During
       by several bills. For example, several IGs met with                    this period, the task force has developed training
       HSGAC staff and GAO officials to discuss concerns                      programs on procurement and forensic auditing. At
       with provisions in H.R. 5683, the “Government                          the regional level, OIG Investigations field offices
       Accountability Act of 2008,” that would authorize                      in the Northeast Region, Great Plains Region,
       GAO to perform additional audit work on an                             Midwest Region, Southeast Region, and Western
       agency’s audited financial statements and receive                      Region participate on Procurement Fraud Task Forces
       reimbursement. This bill was subsequently amended                      initiated by the local U.S. Attorneys’ Offices. This
       to address IG community concerns. As amended,                          task force is expected to continue through FY 2009.
       H.R. 5683 passed Congress and was signed by the
                                                                         n	   OIG auditors are members of the Interagency
       President on September 22, 2008, as P.L. 110-323.
                                                                              Suspension and Debarment Committee
 	     In addition, the committee provided comments                           (ISDC), created as an OMB committee
       to HSGAC expressing IG community concerns                              by Executive Order 12549 to monitor the
       on the following bills: (1) S. 2583, the “Improper                     implementation of the order, which mandates
       Payments Elimination and Recovery Act of                               that executive departments and agencies:
       2008,” which would amend the “Improper                                 •	   participate in a Governmentwide system
       Payment Information Act of 2002” and impose                                 of suspension and debarment,
       additional requirements on OMB, Federal
       agencies, executive branch IGs, and the PCIE;
                                                                              •	   issue regulations with Governmentwide criteria
                                                                                   and minimum due process procedures when
       (2) S. 789, the “Government Credit Card Abuse                               debarring or suspending participants, and
       Prevention Act of 2008,” regarding proposals for
       IGs to make findings regarding an employee’s                           •	   send debarred and suspended participants’
                                                                                   identifying information to the General
       culpability for alleged misuse of a Government
                                                                                   Services Administration for inclusion on
       credit card and undertake periodic audits and                               the Excluded Parties List System.
       reporting; (3) S. 3077, the “Strengthening
       Transparency and Accountability in Federal                        	    The committee also facilitates lead agency
                                                                              coordination; serves as a forum to discuss current
       Spending Act of 2008,” which would mandate that
                                                                              issues related to suspension and debarment; assists in
       OIGs conduct audits of data on agency awards
                                                                              developing unified Federal policy; and, when requested
       (such as financial assistance and procurement)
                                                                              by OMB, serves as a regulatory drafting body for
       every 6 months, among other provisions; and                            revisions to the Governmentwide nonprocurement
       (4) S. 3474, the “Federal Information Security                         suspension and debarment common rule.
       Management Act of 2008 (FISMA),” which
                                                                         	    In addition to participating in the ISDC monthly
       would change the requirements for evaluation or
                                                                              meetings, OIG is acting as co-chair on the
       review of the agency’s information security systems
                                                                              ISDC subcommittee on parallel proceedings.
       under the current FISMA to an annual audit.
                                                                              Parallel proceedings are the concurrent use of
 n	    The USDA IG is a member of the National                                criminal, civil, and administrative actions (e.g.,
       Procurement Fraud Task Force, formed by DOJ in                         suspension and debarment) to fully employ all
       October 2006 as a partnership among Federal agencies                   the remedies available to the Federal Government
       charged with the investigation and prosecution of                      when taking actions against those persons or
       illegal acts in connection with Government contracting                 entities that abuse or harm Federal programs.




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                               Goal 3




n	   OIG’s NCFD is an active participant in the PCIE                         assisted in the PCIE Peer Review Standards revision
     IT Committee’s Investigations Subcommittee                              process, prompted by changes in the Government
     and the Working Group on Computer Forensics.                            Auditing Standards and the Statement of Auditing
     The subcommittee is now reviewing Encryption                            Standards issued by the American Institute of
     Key Escrow policies within each participating                           Certified Public Accountants. OIG staff provided
     agency to help establish a best-practices document                      technical assistance in revising Appendix D, which
     related to key escrow. The subcommittee is                              provides guidance for reviewing financial statement
     expected to continue through FY 2009.                                   audits where an OIG is the primary auditor.

n	   A forensic analyst from OIG’s NCFD participates                    Testimony Delivered
     full time at the FBI’s Heart of America Regional
     Computer Forensic Lab (HARCFL) in Kansas                           n	   IG Testifies Before the House Committee on Oversight
     City, Missouri. Participation in HARCFL has been                        and Government Reform’s Subcommittee on Government
     beneficial in obtaining direct access to a Regional                     Management, Organization, and Procurement Regarding
     Computer Forensics Laboratory, training, sample                         USDA’s Management Actions on Civil Rights Complaints.
     policies and procedures, and, as needed, FBI assistance                 On May 14, 2008, IG Phyllis Fong presented
     in OIG’s forensic examinations. OIG work in this                        testimony describing OIG’s oversight work related
     area is expected to continue through FY 2009.                           to civil rights issues at USDA. IG Fong stated that
                                                                             ensuring fair treatment and due consideration for all
n	   National Single Audit Sampling Project. This project                    USDA stakeholders and employees must be a matter
     is being conducted under the auspices of the PCIE                       of daily emphasis for USDA’s agencies and offices.
     Audit Committee study, Report on National Single                        OIG’s audit work on civil rights complaint processing
     Audit Sampling Project, issued to OMB in June 2007,                     at USDA has identified recurring themes such as
     on the quality of audits performed under OMB                            continual internal reorganization within the Civil
     Circular A-133 and how to improve them. Prompted                        Rights office (CR, now the Office of Adjudication
     by the PCIE study, but not under the purview of                         and Compliance), turnover of management and staff,
     PCIE, OMB has designated a number of Federal                            and lack of adequate management controls to track
     agencies to examine whether the Single Audit process                    and monitor progress in achieving results, among
     should be changed and, if so, how. USDA OIG                             other issues. After discussing OIG’s extensive work on
     continues to participate in one of eight Single Audit                   management and administrative issues related to civil
     Improvement Workgroups, entitled “The New and                           rights concerns over the past decade, the IG’s testimony
     Improved Single Audit Process.” This workgroup is                       discussed OIG’s most recent oversight work—the May
     seeking input from the audit community—Federal                          2007 report evaluating USDA’s progress in addressing
     (including GAO), State, and local governmental                          Equal Employment Opportunity (EEO) complaints,
     auditors, and certified public accountants—as well                      which had three primary findings. First, CR had
     as the report user community. Since February 2008,                      improved its timeliness in processing complaints but
     the workgroup has been reviewing OMB Circular                           needs to implement additional measures to close
     A‑133 to identify changes needed, addressing both                       them within an acceptable timeframe. Second, CR’s
     the impact on the community and the Single Audit                        automated system for processing and tracking EEO
     process. Upon completion of the review within OMB,                      complaints did not have sufficient business rules
     the workgroup will draft a Federal Register Notice                      to ensure the completeness of the complaint data
     to accompany a Notice of Proposed Rulemaking.                           being entered. Finally, OIG found that CR has made
n	   OIG auditors are members of the Financial Statement                     progress in properly maintaining case files but had
     Audit Network (FSAN), consisting of OIG auditors                        not yet established adequate controls over its file room
     from numerous Federal agencies who share ideas,                         operations and documentation. IG Fong advised the
     knowledge, and experiences in the audit community.                      Subcommittee Members of the recommendations OIG
     In conjunction with an FSAN workgroup, USDA OIG                         had issued to CR to address each of these concerns.




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half          21
                                                                 Goal 3




 ONGOING AND PLANNED REVIEWS FOR GOAL 3                                        •	    Section 32 disaster programs including
                                                                                     the Feed, Hurricane (crop), and Livestock
 Topics that will be covered in ongoing or planned reviews
                                                                                     Indemnity Programs (FSA and CCC),
 under Goal 3 include:
                                                                          n	   establishment of average yields (NASS),
 n	    annual audits of the Department and
       standalone agencies’ financial statements                          n	   USDA’s Joint Subcommittee on Aquaculture’s
       for FYs 2008 and 2009 (OCFO),                                           coordination of research (ARS),

 n	GIPSA’s management and oversight of the                                n	   compliance activities (RMA),
   Packers and Stockyards Program,
                                                                          n	   2005 emergency hurricane relief
 n	    acquisition of IT software, hardware,                                   efforts in Florida (RMA),
       and services by OCFO,
                                                                          n	   programs for beginning farmers and ranchers
 n	    agreed-upon procedures: retirement, health,                             (FSA, RMA, NRCS, and RD),
       and life insurance withholdings/contribution
                                                                          n	   Livestock Risk Protection Program (RMA),
       and supplemental headcount report submitted
       to OPM FYs 2008 and 2009 (OCFO),                                   n	   monitoring the implementation of the
                                                                               new farm bill provisions and mandates
 n	    accounting for farm loan programs (FSA),
                                                                               (FSA, NRCS, RMA, and RD),
 n	    National School Lunch Program
                                                                          n	   FS acquisition of IT software/hardware,
       improper payments (FNS),
                                                                          n	   FS working capital fund,
 n	    controls over property used to secure farm loans (FSA),
                                                                          n	   FS firefighting cost share agreements
 n	    FY 2009 Defense Contract Audit Agency (DCAA)
                                                                               with non-Federal entities,
       Contract Audit Administration (USDA),
                                                                          n	   Federal lands recreation enhancement fund (FS), and
 n	GovTrip to Foundation Financial
   Information System Interface (OCFO),                                   n	   Electronic Incident Reporting System (FS).

 n	    Controls Over Implementation of                                    n	   The findings and recommendations from these efforts
       Competitive Sourcing Efforts (OCFO),                                    will be covered in future Semiannual Reports as the
                                                                               relevant audits and investigations are completed.
 n	    Hurricane Relief Initiatives:




22    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                     Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                          WORK FOR GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                               NRCS Improperly Obligated Wetlands Reserve
natural resources.                                                        Program (WRP) Funds and Inadequately Monitored
                                                                          Easements
OIG’s audits and investigations focus on USDA’s management
                                                                          During the 2002 Farm Bill period, 38 NRCS State offices
and stewardship of natural resources, including soil, water,
                                                                          improperly incurred new obligations for more than 1,400
and recreational settings. Our work in this area is vital because
                                                                          contracts with expired WRP funds authorized under the
USDA is entrusted with hundreds of billions of dollars in fixed
                                                                          1996 Farm Bill. In some cases, NRCS deobligated and
public assets, such as the 192.5 million acres of national forests
                                                                          reobligated the same funds over multiple years—in effect,
and wetlands. USDA also provides scientific and technical
                                                                          exceeding its 2002 Farm Bill fiscal authority multiple times
knowledge for enhancing and protecting the economic
                                                                          using the same 1996 Farm Bill funds. In consultation with
productivity and environmental quality of the estimated
                                                                          OGC, we determined that NRCS violated the appropriation-
1.5 billion acres of forests and associated rangelands in the
                                                                          level prohibition of the Anti-Deficiency Act (ADA). Once
United States.
                                                                          notified, NRCS cured this ADA violation by deobligating
In the second half of FY 2008, we devoted 2.8 percent of                  all open obligations from the 1996 Farm Bill, totaling about
our total direct resources to Goal 4, with 97.0 percent of                $78 million, except for four contracts with installment
these resources assigned to critical/high-impact work. A                  payments; and by reimbursing CCC the amount that was
total of 100 percent of our audit recommendations under                   already expended, totaling about $15.8 million.
Goal 4 resulted in management decision within 1 year, and
                                                                          We also found that 5 of 6 NRCS State offices did not annually
56.1 percent of our investigative cases resulted in criminal,
                                                                          monitor 134 of 153 (88 percent) sampled WRP easements. As
civil, or administrative action. OIG issued three audit reports
                                                                          a result, NRCS did not detect violations on 37 of 92
under Goal 4 during this reporting period and a total of three
                                                                          (40 percent) easements we visited. Furthermore, we found
during the full fiscal year. OIG investigations under Goal 4
                                                                          that the Florida and Arkansas NRCS State offices paid more
yielded one indictment, no convictions, and $299,076 in
                                                                          than the 75-percent cap for two 30-year easements, which
monetary results during the reporting period and a total of
                                                                          totaled $418,598 more than the allowed Federal share. NRCS
four indictments, five convictions, and about $1.6 million in
                                                                          agreed to develop a monitoring system to prioritize the
monetary results during the full fiscal year.
                                                                          easements and optimize monitoring resources by implementing,
                                                                          for example, a risk-based system; and to collect the $418,598
  Management Challenges Addressed Under Goal 4                            in cost shares from the landowners in Florida and Arkansas.
  n	     Interagency Communications, Coordination,                        (Audit Report No. 10099-4-SF, NRCS’ WRP—Wetlands
         and Program Integration Need Improvement                         Restoration and Compliance)
         (also under Goals 1, 2, and 3)
                                                                          NRCS Improved Status Review Process
  n	     Better FS Management and Community
                                                                          The Food Security Act of 1985, as amended, provides
         Action Needed To Improve the Health of
                                                                          disincentives to farmers and ranchers to discourage them from
         the National Forests and Reduce the Cost of
                                                                          producing annually tilled agricultural commodity crops on
         Fighting Fires (also under Goals 1 and 3)
                                                                          highly erodible cropland without adequate erosion protection.
                                                                          NRCS designed the status review process to evaluate producer
                                                                          compliance with these highly erodible land conservation
                                                                          (HELC) and wetland conservation (WC) provisions.
                                                                          Our review confirmed that NRCS has made considerable
                                                                          improvements to the status review sample selection and




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half      23
                                                                    Goal 4




data collection processes, addressing major areas of concern             through the TSP process. We found that the TSP process
included in previous OIG audit reports. In response to earlier           generally worked as intended and made conservation technical
criticisms that tracts subject to sample selection included those        assistance available to farmers and ranchers, supplementing
not subject to the HELC or WC provisions, NRCS discussed                 the capabilities of NRCS staff. However, we determined that
with FSA ways to identify alternatives for establishing a more           the acquisition of, and payment for, these technical services
applicable universe of eligible tracts. NRCS refined the data            from third-party vendors through contribution agreements
selection criteria to provide better assurance that the universe         needed to be improved. Contribution agreements are used
of land tracts from which a random sample is selected includes           when third parties seek to partner with NRCS in accomplishing
tracts that are subject to the HELC and WC provisions, thus              conservation assistance. Each partner contributes an equal share
decreasing the time and effort associated with identifying               of the cost of the agreed-to assistance.
substitute tracts and providing for more reasonable estimates of
                                                                         Our assessment of the use of contribution agreements in two
producer compliance and noncompliance.
                                                                         States found that one State lacked much of the information
NRCS also implemented policy that calls for the sample                   that should have existed to support both the awarding of the
selection process to be completed in January of each year to             contribution agreements and subsequent payments for the work
ensure that the sampling and notification processes are timely           performed. In addition, oversight of contribution agreements
completed during critical erosion control periods. Through               by the NRCS national office was not sufficient to identify and
a Web-based application, NRCS can now perform the                        correct ongoing problems. Without better documentation,
appropriate summarization, analysis, and reporting of status             misunderstandings may occur regarding the type and extent
review results by yearend. Our report presented no findings or           of assistance provided, and unsupported claims could result in
recommendations. (Audit Report No. 50601-13-KC, Status                   NRCS making improper payments. NRCS agreed to revise its
Review Process)                                                          guide for conducting management reviews of the acquisition
                                                                         process at State offices, targeting improved coverage of pre- and
Management Controls Over the Technical Service
                                                                         post-award functions performed by the States when acquiring
Provider (TSP) Process Were Generally Adequate
                                                                         conservation assistance through contribution agreements.
USDA certifies third parties that can provide conservation               (Audit Report No. 10601-5-Ch, Controls Over TSPs)
technical services to the Nation’s farmers and ranchers




24     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                            Goal 4




ONGOING AND PLANNED REVIEWS FOR GOAL 4
Topics that will be covered in ongoing or planned reviews
under Goal 4 include:
n	    Conservation Security Program (NRCS),
n	    Wildlife Habitat Incentives Program (NRCS),
n	    review of NRCS conservation compliance,
n	    Environmental Quality Incentives Program (NRCS),
n	    Conservation Stewardship Program (NRCS),
n	    FS Invasive Species Program,
n	    FS watershed management,
n	    FS management of oil and gas resources
      on National Forest System lands,
n	    FS Legacy Program – appraisal process,
n	    FS administration of special use permits,
n	    FS cost contracting – engine crews,
n	    FS rights-of-way and easements,
n	    oversight and control of FS activities, and
n	    timber sale administration –
      Northwest Forest Plan (FS).

The findings and recommendations from these efforts will
be covered in future Semiannual Reports as the relevant
audits and investigations are completed.




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half   25
                                                               Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST                                                For audits we show
THE OIG STRATEGIC PLAN                                                    n	       reports issued
The first way we gauged our impact was by measuring the                   n	       management decisions made (number of
extent to which our work focused on the key issues under our                       reports and recommendations)
newly revised goals that became effective in FY 2008:
                                                                          n	       total dollar impact of management-decided reports
1.	   Strengthen USDA’s ability to implement safety and                            (questioned costs and funds to be put to better use)
      security measures to protect the public health as
                                                                          n	       program improvement recommendations
      well as agricultural and Departmental resources.
                                                                          n	       audits without management decision
2.	   Reduce program vulnerabilities and strengthen program
      integrity in the delivery of benefits to program participants.      For investigations we show
3.	   Support USDA in implementing its                                    n	          indictments
      management improvement initiatives.
                                                                          n	          convictions
4.	   Increase the efficiency and effectiveness with which USDA
      manages and exercises stewardship over natural resources.           n	          arrests

IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                             n	          total dollar impact (recoveries, restitutions, fines)
DEPARTMENT PROGRAMS                                                       n	          administrative sanctions
A second way we gauge our impact is by tracking the outcomes              n	          OIG Hotline complaints
of our audits and investigations. Many of these measures are
codified in the Inspector General Act of 1978, as amended.
The following pages present a statistical overview of the OIG’s
accomplishments this period.



                               PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                   FY 2007          FY 2008      FY 2008 2nd     FY 2008 Full
 Performance Measures
                                                                                    Actual           Target       Half Actual    Year Actual

 OIG direct resources dedicated to critical-risk and high-impact work                  92.8%             90%           95.0%              95.3%

 Audit recommendations resulting in management decision within
                                                                                       84.0%             85%           97.0%              84.3%
 1 year of report issuance

 Closed investigations previously referred for action that resulted
 in an indictment, conviction, civil suit or settlement, judgment,                     73.7%             65%           68.7%              72.5%
 administrative action, or monetary result




26     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                 Impact of the OIG




RECOGNITION OF OIG EMPLOYEES BY THE PRESIDENT, THE DEPARTMENT, AND THE IG COMMUNITY

PRESIDENTIAL RANK AWARD                                     Awards for Excellence
Meritorious Executives                                      Meat and Poultry Risk-Based Inspection Team
Robert Young                                                Audit
Audit                                                       Ohio Organized Crime Investigations Commission Task
                                                            Force 08-2
                                                            Investigations
SECRETARY’S HONOR AWARD
                                                            Faith in Action/Community Outreach, et al., Investigation
Meat and Poultry Risk-Based Inspection Team
                                                            Team
Audit
                                                            Investigations
                                                            USDA Animal Import Controls Review Team
PCIE/EXECUTIVE COUNCIL ON INTEGRITY AND                     Audit
EFFICIENCY AWARDS                                           Bad Newz Kennels Investigation Forfeiture Team
Alexander Hamilton Award                                    Multiple Disciplines
Marlane Evans
Audit
Gaston L. Gianni, Jr., Better Government Award
                                                            GOLD PRESIDENTIAL VOLUNTEER SERVICE AWARD
LINK Task Force                                             Rodney DeSmet
Investigations                                              Office of Inspections and Research

Barry R. Snyder Award                                       Matthew Wilkins
Financial Statement Audit Network                           Investigations
Audit




                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half        27
                                                                       Impact of the OIG




                                       SUMMARY OF AUDIT ACTIVITIES—APRIL–SEPTEMBER 2008
Reports Issued                                                                                                                                   34
       Audits Performed by OIG                                                                                                                    33
       Evaluations Performed by OIG                                                                                                                0
       Audits Performed Under the Single Audit Act                                                                                                 0
       Audits Performed by Others                                                                                                                  1
Management Decisions Made
       Number of Reports                                                                                                                          25
       Number of Recommendations                                                                                                                153
Total Dollar Impact (Millions) of Management-Decided Reports                                                                               $118.6
       Questioned/Unsupported Costs                                                                                                            $0.7ab
         Recommended for Recovery                                                                                                              $0.7
         Not Recommended for Recovery                                                                                                          $0.0
       Funds To Be Put to Better Use                                                                                                        $117.9
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as the auditees implement the agreed‑upon corrective action plan and seek recovery of amounts recorded as debts
    due the Department.



                                 SUMMARY OF INVESTIGATIVE ACTIVITIES— APRIL–SEPTEMBER 2008
     Reports Issued                                                                                                                             129
     Cases Opened                                                                                                                               193
     Cases Closed                                                                                                                               150
     Cases Referred for Prosecution                                                                                                             111
Impact of Investigations
     Indictments                                                                                                                                359
     Convictions                                                                                                                               358a
     Searches                                                                                                                                   132
     Arrests                                                                                                                                    994
Total Dollar Impact (Millions)                                                                                                               $40.0
     Recoveries/Collections                                                                                                                    $2.0b
     Restitutions                                                                                                                            $21.1c
     Fines                                                                                                                                     $0.3d
     Claims Established                                                                                                                        $7.7e
     Cost Avoidance                                                                                                                            $2.7f
     Administrative Penalties                                                                                                                  $6.2g
Administrative Sanctions                                                                                                                         78
     Employees                                                                                                                                   14
     Businesses/Persons                                                                                                                          64
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 358
     convictions do not necessarily relate to the 359 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f
    Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




28        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                              Impact of the OIG




Full FY 2008 Results in Key Categories
                       Summary of Audit Activities— October 2007–September 2008
Reports Issued                                                                                          64
Management Decisions Made
  Number of Reports                                                                                     47
  Number of Recommendations                                                                            333
Total Dollar Impact (Millions) Of Management-Decided Reports                                       $482.4
  Questioned/Unsupported Costs                                                                       $31.3
  Funds To Be Put to Better Use                                                                     $451.1


                  Summary of Investigative Activities— October 2007–September 2008
Reports Issued                                                                                        275
Impact of Investigations
  Indictments                                                                                          484
  Convictions                                                                                          732
  Arrests                                                                                            1,176
Total Dollar Impact (Millions)                                                                      $74.7
Administrative Sanctions                                                                             132




                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half   29
                                                        Impact of the OIG




         INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              FROM APRIL 1 THROUGH SEPTEMBER 30, 2008
                                                                                   NUMBER         DOLLAR VALUE
A.    FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE                                  4               $3,116,001
      BY APRIL 1, 2008
B.    WHICH WERE ISSUED DURING THE REPORTING PERIOD                                   3             $191,433,339
      TOTALS                                                                          7            $194,549,340
C.    FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                                 3
      THE REPORTING PERIOD
      (1) DOLLAR VALUE OF DISALLOWED COSTS                                                          $117,871,854
      (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                   $0
D.    FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE                                  4              $76,677,486
      BY THE END OF THE REPORTING PERIOD
      REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                                    3               $2,727,159
      MADE WITHIN 6 MONTHS OF ISSUANCE


                       INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                FROM APRIL 1 THROUGH SEPTEMBER 30, 2008
                                                                             DOLLAR VALUES
                                                                            QUESTIONED COSTS   UNSUPPORTEDa COSTS
                                                             NUMBER            AND LOANS           AND LOANS
A.   FOR WHICH NO MANAGEMENT                                     7              $2,987,251          $569,119
     DECISION HAD BEEN MADE BY
     APRIL 1, 2008
B.   WHICH WERE ISSUED DURING THIS                               7            $18,538,470                 $0
     REPORTING PERIOD
      TOTALS                                                    14           $21,525,721           $569,119
C.   FOR WHICH A MANAGEMENT                                      4
     DECISION WAS MADE DURING THIS
     REPORTING PERIOD
     (1) DOLLAR VALUE OF DISALLOWED
         COSTS
         RECOMMENDED FOR RECOVERY                                                $715,060             $2,808
         NOT RECOMMENDED FOR                                                      $34,830                 $0
         RECOVERY
     (2) DOLLAR VALUE OF COSTS NOT                                               $633,834           $542,422
         DISALLOWED
D.   FOR WHICH NO MANAGEMENT                                    10            $20,141,997            $23,889
     DECISION HAS BEEN MADE BY THE
     END OF THIS REPORTING PERIOD
     REPORTS FOR WHICH NO                                        5              $2,191,596           $23,889
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS OF
     ISSUANCE
Unsupported values are included in questioned values.
a




30   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS
A significant number of our audit recommendations carry no
monetary value per se, but their impact can be immeasurable
in terms of safety, security, and public health. They can also
contribute considerably toward economy, efficiency, and
effectiveness in USDA’s programs and operations. During
this reporting period, we issued 128 program improvement
recommendations, and management agreed to implement a
total of 138 program improvement recommendations that
were issued this period or earlier. Examples of the program
improvement recommendations issued this period (see the
main text of this report for a summary of the audits that
prompted these program improvement recommendations)
include the following:
n	    FSA agreed to revise its examination procedures and
      forms to provide comprehensive procedural guidance
      for warehouse examiners at port facilities.
n	    FNS agreed to consult with DOJ to ensure that the retailer
      authorization process is sufficient for successful prosecution
      of retailers who are trafficking food stamp benefits.
n	    FNS agreed to require the Colorado State agency
      to ensure that errors in the FSP eligibility system
      are corrected and claims properly established.
n	    RMA officials agreed to establish and implement
      formal policies and procedures on sufficient
      documentation and proper administration and
      monitoring of ARPA contracts and partnerships.
n	    FS agreed to use the dispute resolution process to resolve
      any future conflicts with FEMA after disaster relief activities.
n	    The Department agreed to develop and
      implement a renewable energy strategy that
      includes program goals for agency managers.
n	    NRCS agreed to develop a monitoring system to prioritize
      WRP easements and optimize monitoring resources
      by implementing, for example, a risk-based system.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half   31
                                                                   Impact of the OIG




             SUMMARY OF AUDIT REPORTS RELEASED FROM APRIL 1 THROUGH SEPTEMBER 30, 2008
                  DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2008,
       THE OFFICE OF INSPECTOR GENERAL ISSUED 34 AUDIT REPORTS, INCLUDING 1 PERFORMED BY OTHERS.
                          THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:
AGENCY                                                   AUDITS RELEASED       QUESTIONED COSTS      UNSUPPORTEDa     FUNDS BE PUT TO
                                                                                  AND LOANS         COSTS AND LOANS     BETTER USE
AGRICULTURAL RESEARCH SERVICE                                  1
ANIMAL AND PLANT HEALTH                                        1
INSPECTION SERVICE
CHIEF INFORMATION OFFICER                                      1
COOPERATIVE STATE RESEARCH,                                    1
EDUCATION AND EXTENSION
SERVICE
DELTA REGIONAL AUTHORITY                                       1
FARM SERVICE AGENCY                                            6                       $1,591,532                          $655,520
FOOD AND NUTRITION SERVICE                                     4                        $102,087
FOOD SAFETY AND INSPECTION                                     2
SERVICE
FOREIGN AGRICULTURAL SERVICE                                   1
FOREST SERVICE                                                 2                         $46,078                       $116,827,492
MULTIAGENCY                                                    5
NATURAL RESOURCES                                              2                        $418,598                        $73,950,327
CONSERVATION SERVICE
OFFICE OF THE CHIEF FINANCIAL                                  2
OFFICER
RISK MANAGEMENT AGENCY                                         2                   $15,951,016
RURAL BUSINESS-COOPERATIVE                                     1
SERVICE
RURAL TELEPHONE BANK                                           1
RURAL UTILITIES SERVICE                                        1                        $429,159

TOTALS                                                         34                $18,538,470                          $191,433,339
TOTAL COMPLETED:
SINGLE AGENCY AUDIT                                            29
MULTIAGENCY AUDIT                                              5
SINGLE AGENCY EVALUATION                                       0
MULTIAGENCY EVALUATION                                         0
TOTAL RELEASED NATIONWIDE                                      34
TOTAL COMPLETED UNDER                                          1
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc                                     0
a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit




32     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                            Impact of the OIG




                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                 FROM APRIL 1, 2008 THROUGH SEPTEMBER 30, 2008
 AUDIT NUMBER      RELEASE DATE                     TITLE                          QUESTIONED      UNSUPPORTED       FUNDS TO BE
                                                                                    COSTS AND       COSTS AND       PUT TO BETTER
                                                                                      LOANS           LOANS              USE
Agricultural Research Service
026010002CH        2008/05/13          Implementation of Renewable
                                       Energy Programs at the
                                       Agricultural Research Service
Total: Agricultural Research Service                                        1
Animal and Plant Health Inspection Service
336010002HY        2008/04/21          APHIS’ Transfer Authority of
                                       Program Funding
Total: Animal and Plant Health Inspection Service                           1
Chief Information Officer
885010012FM        2008/09/19          Statement on Auditing
                                       Standards No. 70 Report on
                                       the National Information
                                       Technology Center General
                                       Controls
Total: Chief Information Officer                                            1
Cooperative State Research, Education, and Extension Service
136010001HY        2008/05/30          CSREES – National Research
                                       Initiative Competitive Grants
                                       Program (NRICGP)
Total: Cooperative State Research, Education and Extension Service          1
Delta Regional Authority
620990002TE        2008/07/31          Controls Over Issuance of
                                       Appropriated Funds by the
                                       Delta Regional Authority FY’s
                                       2005-2007
Total: Delta Regional Authority                                             1
Farm Service Agency
030990181TE        2008/05/08          Payment Limitation Review in                  $1,432,622
                                       Louisiana
030990198KC        2008/08/22          FSA Inspection of Temporary
                                       Domestic Storage Sites for
                                       Foreign Food Assistance
036010015AT        2008/09/04          Tobacco Transition Payment
                                       Program/Tobacco Assessments
                                       (Against Tobacco Manufacturers
                                       and Importers)




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half   33
                                                          Impact of the OIG




                               AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    FROM APRIL 1, 2008 THROUGH SEPTEMBER 30, 2008
 AUDIT NUMBER      RELEASE DATE                   TITLE                           QUESTIONED     UNSUPPORTED    FUNDS TO BE
                                                                                   COSTS AND      COSTS AND    PUT TO BETTER
                                                                                     LOANS          LOANS           USE
036010017CH        2008/09/29        Controls Over Guaranteed Farm
                                     Loan Interest Rates and Interest
                                     Assistance
036010024KC        2008/09/17        Hurricane Relief Initiative                     $158,910                      $655,520
                                     – Emergency Forestry
                                     Conservation Reserve Program
036010026KC        2008/09/25        Marketing Assistance Loans
                                     and Loan Deficiency Payment
                                     Provisions for Pulse Crops
Total: Farm Service Agency                                                    6     $1,591,532                     $655,520
Food and Nutrition Service
270020025HY        2008/09/10        FNS Food Stamp Program, New
                                     Jersey Administrative Costs
270170006HQ        2008/08/19        DCAA Audit of ABT Associates,
                                     Inc., FY 2004 Incurred Cost
270990068HY        2008/06/20        Audit of the Colorado State                     $102,087
                                     Agency Oversight of EBT
                                     Operations
276010015AT        2008/09/26        FNS Food Stamp Program
                                     Retailer Authorization Controls
                                     and Visits
Total: Food and Nutrition Service                                             4      $102,087
Food Safety and Inspection Service
246010008HY        2008/08/04        Followup on FSIS’ Inspection of
                                     Meat and Poultry Imports
246010009HY        2008/08/07        FSIS Recall Procedures for
                                     Adulterated and Contaminated
                                     Product
Total: Food Safety and Inspection Service                                     2
Foreign Agricultural Service
076010002HY        2008/07/22        GSM 102 Export Credit
                                     Guarantee Program
Total: Foreign Agricultural Service                                           1
Forest Service
086010051SF        2008/08/05        FS Controls Over Documenting                                              $116,827,492
                                     and Reporting Its Hurricane
                                     Relief Expenditures to FEMA




34    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                              Impact of the OIG




                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM APRIL 1, 2008 THROUGH SEPTEMBER 30, 2008
 AUDIT NUMBER       RELEASE DATE                     TITLE                          QUESTIONED     UNSUPPORTED       FUNDS TO BE
                                                                                     COSTS AND      COSTS AND       PUT TO BETTER
                                                                                       LOANS          LOANS              USE
086010052SF         2008/08/12          FS’ Renewable Energy Program                    $46,078
Total: Forest Service                                                           2       $46,078                      $116,827,492
Multi-Agency
505010009FM         2008/07/11          Management and Security Over
                                        USDA Wireless Connections
505010013FM         2008/09/30          FY 2008 Federal Information
                                        Security Management Act
                                        (FISMA) Report
506010004HY         2008/09/18          Adequacy of Internal Controls
                                        Over Travel Card Expenditures
                                        – Followup
506010013CH         2008/08/14          Implementation of Renewable
                                        Energy Programs in USDA
506010013KC         2008/06/11          NRCS Status Review Process
Total: Multi-Agency                                                             5
Natural Resources Conservation Service
100990004SF         2008/08/25          NRCS Wetland Reserve                           $418,598                       $73,950,327
                                        Program – Restoration
                                        Compliance
106010005CH         2008/09/16          Controls Over Technical Service
                                        Providers
Total: Natural Resources Conservation Service                                   2      $418,598                       $73,950,327
Office of the Chief Financial Officer
114010028FM         2008/09/19          Statement on Auditing
                                        Standards No. 70 Report on
                                        the National Finance Center
                                        General Controls
114010029FM         2008/09/18          Agreed-Upon Procedures:
                                        Retirement, Health Benefits, and
                                        Life Insurance Withholdings/
                                        Contribution and Supplemental
                                        Headcount Report Submitted
                                        to the Office of Personnel
                                        Management FY 2008
Total: Office of the Chief Financial Officer                                2
Risk Management Agency
050990112KC         2008/05/09          Contracting for Services Under
                                        the Agricultural Risk Protection
                                        Act of 2000




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half   35
                                                           Impact of the OIG




                                 AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1, 2008 THROUGH SEPTEMBER 30, 2008
 AUDIT NUMBER       RELEASE DATE                   TITLE                           QUESTIONED     UNSUPPORTED    FUNDS TO BE
                                                                                    COSTS AND      COSTS AND    PUT TO BETTER
                                                                                      LOANS          LOANS           USE
056010015TE         2008/09/30        Crop Loss and Quality                         $15,951,016
                                      Adjustments for Aflatoxin
                                      Infected Corn
Total: Risk Management Agency                                                  2    $15,951,016
Rural Business-Cooperative Service
346010005CH         2008/07/03        Implementation of Renewable
                                      Energy Programs in RBS
Total: Rural Business-Cooperative Service                                      1
Rural Telephone Bank
154010008FM         2008/07/11        RTB Closeout Audit
Total: Rural Telephone Bank                                                    1
Rural Utilities Service
096010006TE         2008/07/03        Texas Community Connect                         $429,159
                                      Grants Close-out Audit
Total: Rural Utilities Service                                                 1      $429,159
Grand Total:                                                              34       $18,538,470                  $191,433,339




36    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                                    Impact of the OIG




                                                AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following audits did
not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table. An asterisk (*) indicates
that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to complete management decisions.


                                                   NEW SINCE LAST REPORTING PERIOD
Agency               Date Issued                         Title of Report                     Total Value at Issuance         Amount With No Mgmt.
                                                                                                    (in dollars)                 (in dollars)
APHIS            01/15/08                1. USDA’s Implementation of the                    0                               0
                                         National Strategy for Pandemic
                                         Influenza (33701-1-Hy)
Multiagency 03/31/08                     2. USDA’s Controls Over the                        0                               0
                                         Importation and Movement of Live
                                         Animals (50601-12-Ch)




                                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half                   37
                                                                   Impact of the OIG




                                            PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where management
decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of actions that must be
taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.



Agency            Date Issued                           Title of Report                          Total Value at Issuance Amount With No Mgmt.
                                                                                                        (in dollars)         (in dollars)
CSREES            08/17/07         3. CSREES – Tribal 1994 Land‑Grant                                             951,345                       874,986
                                   Institutions (13011-3-At)
FAS               02/22/07         4. Trade Promotion Operations (07601-1-Hy)                                             0                                0
FSA               9/26/07          5. Tobacco Transition Payment Program – Quota                                 456,703                         29,820
                                   Holder Payments and Flue‑Cured Tobacco
                                   Quotas (03601-12-At)
FSIS              06/21/00         6. Implementation of the Hazard Analysis and                                           0                                0
                                   Critical Control Point (HACCP) System (24001-
                                   3-At)
                  09/30/03         7. Oversight of Production Process and Recall at                                       0                                0
                                   ConAgra Plant (Establishment 969)(24601-2-
                                   KC)
                  06/24/05         8. HACCP – Compliance by Very Small Plants                                             0                                0
                                   (24601-5-At)
Multiagency 09/30/03               9. Implementation of ARPA (50099-12-KC)                                                0                                0
                  02/23/04         10. Homeland Security Issues for USDA Grain                                            0                                0
                                   and Commodities Inventory (50099-13-KC)
                  03/28/07         11. Implementation of Trade Title of 2002 Farm                                         0                                0
                                   Bill and President’s Management Agenda (50601-
                                   12-At)
                  08/27/07         12. Crop Bases on Lands With Conservation                                   1,385,937                     1,385,937
                                   Easements Conservation Easements
RBS               01/28/02         13. Lender Servicing of Business and Industry                               1,536,060                     1,536,060
                                   Guaranteed Loans, Florida (34601-3-At)
RHS               09/30/04         14. Rural Rental Housing Project Costs, Cairo,                                164,000                       164,000
                                   IL (04099-143-Ch)
RMA               03/15/02         15. Monitoring of RMA’s Implementation of                                              0                                0
                                   Manual 14 Reviews/Quality Control Review
                                   System (05099-14-KC)	
                  03/26/07         16. Evaluation of RMA Indemnity Payments for                                  415,710                       415,710
                                   2004 Florida Hurricanes (05099-27-At)




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                          Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION–                                  2. USDA’s Controls Over the Importation and
NARRATIVE FOR NEW ENTRIES                                            Movement of Live Animals (50601-12-Ch), Issued
                                                                     March 31, 2008
1. USDA’s Implementation of the National Strategy for
Pandemic Influenza (33701-01-Hy), Issued January                     OIG found that APHIS needed increased inspection efforts
15, 2008                                                             for import restrictions, enhanced animal surveillance at the
                                                                     northern border, better controls to ensure imported animals
OIG found that certain support tasks (e.g., tasks for which
                                                                     reach slaughter, and steps to prevent the importation of
USDA is responsible for coordinating and collaborating
                                                                     diseased/unhealthy bovine at the southern border. In addition
with the lead agency) were not properly assigned. USDA
                                                                     APHIS needs better accountability of official USDA seals
was tasked to implement response or screening protocols at
                                                                     and improved oversight of port operations. APHIS agreed
domestic airports and other transport modes based on disease
                                                                     with most of these nine open recommendations. To reach
characteristics and availability of rapid detection methods
                                                                     management decision, APHIS needs to describe how an
and equipment. USDA, however, does not have the authority
                                                                     information system will track import problems and provide
to regulate interstate transportation of agricultural products.
                                                                     a plan for oversight to ensure that the United States can rely
APHIS agreed to coordinate with DHS, the lead agency, to
                                                                     on Canadian certifications. APHIS also needs to describe how
determine scope and suggest any reassignments to the U.S.
                                                                     it will receive notification of animal shipments from U.S.
Homeland Security Council. OIG agreed with this proposed
                                                                     Customs and Border Protection and provide procedures for
corrective action; however, to reach management decision,
                                                                     reconciling all imported-restricted animals, analyzing trends,
APHIS needs to provide a date when the collaboration will take
                                                                     and implementing corrective actions. Further, APHIS needs to
place on the details regarding the reassignment of this task.
                                                                     enforce existing requirements concerning bovine tuberculosis
                                                                     testing and provide procedures for analyzing animal rejections
                                                                     from Mexico. APHIS needs to identify when it will complete
                                                                     an inventory of USDA seals. Finally, APHIS needs to identify
                                                                     additional controls needed for its Import Tracking System.




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half       39
                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS
From April 1 through September 30, 2008, OIG completed 129 investigations. We referred 111 cases to Federal, State, and local
prosecutors for their decision.
During the reporting period, our investigations led to 359 indictments and 358 convictions. The period of time to obtain court
action on an indictment varies widely; therefore, the 358 convictions do not necessarily relate to the 359 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $40.0 million.
The following is a breakdown, by agency, of indictments and convictions for the reporting period.


                                     Indictments and Convictions— April 1–September 30, 2008
                      Agency                                   Indictments                                  Convictions*
                       AMS                                          3                                             1
                      APHIS                                        102                                          176
                        ARS                                         0                                             1
                        FNS                                        213                                          137
                         FS                                         6                                             4
                        FSA                                         15                                           23
                        FSIS                                        4                                             7
                      GIPSA                                         0                                             1
                      NRCS                                          1                                             0
                      OCFO                                          1                                             0
                        RBS                                         0                                             1
                       RHS                                          7                                             5
                       RMA                                          3                                             0
                        RUS                                         4                                             2
                       Totals                                      359                                           358
 *This category includes pretrial diversions.




40      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                        Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE
The OIG Hotline serves as a national receiving point for           which included allegations of participant fraud, employee
reports from both employees and the general public of              misconduct, and mismanagement, as well as opinions about
suspected incidents of fraud, waste, mismanagement, and            USDA programs. Figure 1 displays the volume and type of the
abuse in USDA programs and operations. During this                 complaints we received, and figure 2 displays the disposition of
reporting period, the OIG Hotline received 767 complaints,         those complaints.



   Figure 1. Volume and Type

          Bribery (2)

          Health/Safety (25)

          Reprisal (1)                                                                          Participant Fraud (425)




          Waste/Management (116)




          Employee Misconduct (150)
                                                                                               Opinion/Information (48)




   Figure 2. Disposition of Complaints Received



                                                                                            Referred to USDA or Other Agencies
        Referred to USDA Agencies for Response (396)                                        for Information - No Response
                                                                                            Needed (85)



                                                                                            Referred to OIG Audit or
                                                                                            Investigations for Review (28)

                                                                                            Filled Without Referral -
                                                                                            Insufficient Information (24)


       Referred to FNS for Tracking (243)

                                                                                            Referred to Other Law
                                                                                            Enforcement Agencies (1)




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half          41
                                                                 Impact of the OIG




                          FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                   FOR THE PERIOD APRIL 1 TO SEPTEMBER 30, 2008
Number of FOIA/PA Requests Received                                                                                             95
Number of FOIA/PA Requests Processed                                                                                            106
     Number Granted                                                                                                             8
     Number Partially Granted                                                                                                   62
     Number Not Granted                                                                                                         36
Reasons for Denial
     No Records Available                                                                                                       12
     Referred to Other Agencies                                                                                                 1
     Requests Denied in Full Exemption 5                                                                                        1
     Requests Denied in Full Exemption 7(A)                                                                                     6
     Requests Denied in Full Exemption 7(C)                                                                                     4
     Request Withdrawn                                                                                                          5
     Fee-Related                                                                                                                1
     Not a Proper FOIA Request                                                                                                  2
     Not an Agency Record                                                                                                       1
     Duplicate Request                                                                                                          3
     Other                                                                                                                      0
Requests for OIG Reports From Congress and Other Government Agencies
     Received                                                                                                                   25
     Processed                                                                                                                  22
Appeals Received                                                                                                                2
Appeals Processed                                                                                                               1
     Appeals Completely Upheld                                                                                                  1
     Appeals Partially Reversed                                                                                                 0
     Appeals Completely Reversed                                                                                                0
     Appeals Requests Withdrawn                                                                                                 0
     Other                                                                                                                      0
Number of OIG Reports/Documents Released in Response to Requests                                                                68
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 30 audit reports were posted to the Internet at the OIG website: http://www.usda.gov/oig.




42      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
                                                     Impact of the OIG




         Abbreviations of Organizations                                     Abbreviations of Organizations
AMS       Agricultural Marketing Service                         ISDC         Interagency Suspension and Debarment
APHIS     Animal and Plant Health Inspection Service                          Committee
ARS       Agricultural Research Service                          JTTF         Joint Terrorism Task Force
BCET      Bridge Card Enforcement Team                           NASS         National Agricultural Statistics Service
CCC       Commodity Credit Corporation                           NJTTF        National Joint Terrorism Task Force
CI        Criminal Investigation (IRS)                           NCFD         National Computer Forensic Division
CR        Office of Civil Rights (now OAC)                       NFC          National Finance Center
CSREES    Cooperative State Research, Education,                 NITC         National Information Technology Center
          and Extension Service                                  NRCS         Natural Resources Conservation Service
DCAA      Defense Contract Audit Agency                          OAC          Office of Adjudication and Compliance
DHS       U.S. Department of Homeland Security                   OBPA         Office of Budget and Program Analysis
DOJ       U.S. Department of Justice                             OCFO         Office of the Chief Financial Officer
DRA       Delta Regional Authority                               OCIO         Office of the Chief Information Officer
FAS       Foreign Agricultural Service                           OGC          Office of the General Counsel
FBI       Federal Bureau of Investigation                        OIG          Office of Inspector General
FDA       Food and Drug Administration                           OMB          Office of Management and Budget
FEMA      Federal Emergency Management Agency                    OPM          Office of Personnel Management
FNS       Food and Nutrition Service                             PCIE         President’s Council on Integrity and Efficiency
FS        Forest Service                                         RBS          Rural Business-Cooperative Service
FSA       Farm Service Agency                                    RD           Rural Development
FSAN      Financial Statement Audit Network                      RHS          Rural Housing Service
FSIS      Food Safety and Inspection Service                     RMA          Risk Management Agency
GIPSA     Grain Inspection, Packers and Stockyards               RTB          Rural Telephone Bank
          Administration                                         RUS          Rural Utilities Service
HARCFL    Heart of America Regional Computer                     TTB          Alcohol and Tobacco Tax and Trade Bureau
          Forensic Lab                                                        (Treasury)
ICE       Immigration and Customs Enforcement                    USDA         U.S. Department of Agriculture
          (DHS)                                                  VS           Veterinary Services (APHIS)
IRS       Internal Revenue Service




                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half      43
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (138 TOTAL)
n	    FSA agreed to revise its examination procedures and forms to provide comprehensive
      procedural guidance for warehouse examiners at port facilities.
n	    FNS agreed to consult with DOJ to ensure that the retailer authorization process is sufficient
      for successful prosecution of retailers who are trafficking food stamp benefits.
n	    FNS agreed to require the Colorado State agency to ensure that errors in the FSP
      eligibility system are corrected and claims properly established.
n	    RMA officials agreed to establish and implement formal policies and procedures on sufficient
      documentation and proper administration and monitoring of ARPA contracts and partnerships.
n	    FS agreed to use the dispute resolution process to resolve any future conflicts with FEMA after disaster relief activities.
n	    The Department agreed to develop and implement a renewable energy strategy that includes program goals for agency managers.
n	    NRCS agreed to develop a monitoring system to prioritize WRP easements and optimize
      monitoring resources by implementing, for example, a risk-based system.



MISSION OF OIG
OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department. These programs
encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural
production, agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our
citizens, our communities, and our economy.


OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
n	    Strengthen USDA’s ability to implement safety and security measures to protect the
      public health as well as agricultural and Departmental resources.
n	    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
n	    Support USDA in implementing its management improvement initiatives.
n	    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
                                                             To learn more about OIG, visit our Web site at
                                                                      www.usda.gov/oig/home.htm


                                                      How To Report Suspected Wrongdoing in USDA Programs

                                                                         Fraud, Waste and Abuse
                                                                     In Washington, DC 202.690.1622
                                                                         Outside DC 800.424.9121
                                                                      TDD (Call Collect) 202.690.1202

                                                                            Bribes or Gratuities
                                                                          202.720.7257 (24 hours)
                                                                          888.620.4185 (24 hours)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age, disability, and
where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or
part of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice
and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call
(800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity provider and employer.




     4      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 2nd Half
